<html>
<title> - OVERSIGHT HEARING ON EXAMINING THE CREATION AND MANAGEMENT OF MARINE MONUMENTS AND SANCTUARIES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


    EXAMINING THE CREATION AND MANAGEMENT OF MARINE MONUMENTS AND 
                              SANCTUARIES

=======================================================================

                           OVERSIGHT HEARING

                              BEFORE THE

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                                OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       Wednesday, March 15, 2017

                               __________

                            Serial No. 115-2

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
       
          
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
24-696 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0e697e614e6d7b7d7a666b627e206d616320">[email&#160;protected]</a> 
                   
          
      

                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Norma J. Torres, CA
Scott R. Tipton, CO                  Ruben Gallego, AZ
Doug LaMalfa, CA                     Colleen Hanabusa, HI
Jeff Denham, CA                      Nanette Diaz Barragan, CA
Paul Cook, CA                        Darren Soto, FL
Bruce Westerman, AR                  Jimmy Panetta, CA
Garret Graves, LA                    A. Donald McEachin, VA
Jody B. Hice, GA                     Anthony G. Brown, MD
Aumua Amata Coleman Radewagen, AS    Wm. Lacy Clay, MO
Darin LaHood, IL
Daniel Webster, FL
David Rouzer, NC
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                 ------                                

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                       DOUG LAMBORN, CO, Chairman
              JARED HUFFMAN, CA, Ranking Democratic Member

Robert J. Wittman, VA                Grace F. Napolitano, CA
Tom McClintock, CA                   Jim Costa, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Nanette Diaz Barragan, CA
Jeff Denham, CA                      Jimmy Panetta, CA
Garret Graves, LA                    Madeleine Z. Bordallo, GU
Jody B. Hice, GA                     Gregorio Kilili Camacho Sablan, 
Daniel Webster, FL                       CNMI
  Vice Chairman                      Raul M. Grijalva, AZ, ex officio
David Rouzer, NC
Mike Johnson, LA
Rob Bishop, UT, ex officio

                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, March 15, 2017........................     1

Statement of Members:
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     4
        Prepared statement of....................................     5
    Lamborn, Hon. Doug, a Representative in Congress from the 
      State of Colorado, prepared statement of...................     1
    Webster, Hon. Daniel, a Representative in Congress from the 
      State of Florida...........................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Bruno, John, Ph.D., Professor, Department of Biology, 
      University of North Carolina, Chapel Hill, North Carolina..    10
        Prepared statement of....................................    11
        Questions submitted for the record.......................    19
    Chiasson, Chett, Executive Director, Greater Lafourche Port 
      Commission, Galliano, Louisiana............................    25
        Prepared statement of....................................    26
    Hallman, Brian, Executive Director, American Tunaboat 
      Association, San Diego, California.........................    20
        Prepared statement of....................................    21
        Questions submitted for the record.......................    24
    Mitchell, Jon, Mayor of New Bedford, Massachusetts on behalf 
      of the National Coalition for Fishing Communities, prepared 
      statement of...............................................     6
        Questions submitted for the record.......................     8

Additional Materials Submitted for the Record:
    Governors of Guam, American Samoa, and CNMI, March 3, 2017 
      Letter to President Trump..................................    62
    Huffington Post, November 22, 2016, ``Marine reserves lead to 
      bigger fishes--Florida needs more of them,'' by John Bruno.    46
    List of documents submitted for the record retained in the 
      Committee's official files.................................    71
    National Coalition for Fishing Communities, Letters submitted 
      by Chairman Bishop.........................................    54
    Outcomes Statement and Recommendations, Council Coordination 
      Committee on Marine National Monuments.....................    66
    Pacific Legal Foundation--New England fishermen challenge 
      Obama's marine national monument...........................    43
    Seafood Harvesters of America, March 13, 2017 Letter to 
      Chairman Bishop............................................    67
    Tabular Fleet information submitted by Rep. Sablan...........    34
    Western Pacific Regional Fishery Management Council, February 
      23, 2017 Letter to President Trump.........................    68
                                     


 
 OVERSIGHT HEARING ON EXAMINING THE CREATION AND MANAGEMENT OF MARINE 
                       MONUMENTS AND SANCTUARIES

                              ----------                              


                       Wednesday, March 15, 2017

                     U.S. House of Representatives

                Subcommittee on Water, Power and Oceans

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
room 1324, Longworth House Office Building, Hon. Daniel Webster 
[Vice Chairman of the Subcommittee] presiding.
    Present: Representatives Wittman, Graves, Webster, Bishop 
(ex officio), Beyer, Panetta, Sablan, and Grijalva (ex 
officio).
    Also Present: Representatives Radewagen, Young of Alaska, 
and Lowenthal.
    Mr. Webster. The Committee on Water, Power and Oceans will 
come to order.
    The Water, Power and Oceans Subcommittee meets today to 
hear testimony on the oversight hearing entitled ``Examining 
the Creation and Management of Marine Monuments and 
Sanctuaries.''
    Due to the winter storms that impacted many Members' 
traveling schedules, including Chairman Lamborn's, I will serve 
as the Acting Chair today.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chairman and Ranking Minority 
Member and Vice Chair.
    Since Chairman Lamborn could not be here today, I ask 
unanimous consent to enter his statement into the hearing 
record. Without objection, so ordered.
    [The prepared statement of Mr. Lamborn follows:]
Prepared Statement of the Hon. Doug Lamborn, Chairman, Subcommittee on 
                        Water, Power and Oceans
    Today, the Subcommittee on Water, Power and Oceans meets to examine 
the impacts of Federal Marine National Monuments and Marine 
Sanctuaries, including the processes by which they are established and 
implemented.
    The designations of these so-called Marine Protected Areas have 
occurred under both Republican and Democratic administrations. While I 
did not agree with President George W. Bush's creation of the first-
ever Marine National Monuments in the Pacific, the last administration 
was on steroids when it came to creating new land-based monuments, 
expanding marine monuments and creating the first monument in the 
Atlantic Ocean.
    In my home state of Colorado, the Obama administration imposed a 
top-down, big-government National Monument land grab in the Browns 
Canyon in 2015. This impacted grazing rights, water rights, outdoor 
recreation, and compromised the ability of first responders to manage 
and fight wildfires in the area. Coloradans deserved better than an 
edict from Washington, DC.
    These national monuments and the proposed expansion of a marine 
sanctuary in the Gulf of Mexico completely undermine the multiple-use 
history of our Federal and territorial lands and waters. As we will 
learn, they have real-life impacts on those economies and cultures 
which depend on their natural resources. They also affect consumers 
throughout the entire country, including those in Colorado, which is 
not known as a seafood mecca.
    As an example, the proposed expansion of the Flower Garden Banks 
National Marine Sanctuary, about 100 miles off the Texas and Louisiana 
coasts, could significantly impact oil and gas and commercial fishing 
activities that will hit consumer pocketbooks and seafood availability. 
The Federal Government's preferred sevenfold expansion plan--as 
proposed by the last administration--has been referred to a ``bait and 
switch'' because it does not reflect the diverse stakeholder consensus 
found earlier in the Advisory Board process.
    In addition, the Northeast Canyons and Seamounts Marine National 
Monument, 130 miles off the coast of Cape Cod, Massachusetts, will only 
increase our heavy reliance on seafood imports by shutting off fishing 
access. The last administration simply ignored a local alternative and 
had what was a called a ``charade'' of a late-noticed town meeting far 
away from the working docks of fishing communities. It's with little 
wonder that the designation has now resulted in litigation.
    There are similar stories in the Pacific, which Mrs. Radewagen will 
discuss in greater detail.
    It didn't need to be this way. It's simply unacceptable. The 
Federal Government does not know better than the people on land, on the 
docks or in the water. Our agencies need to be working with local 
officials, industry, and all stakeholders as they are the ones that 
will directly benefit from, or bear the burden of these closed areas.
    We need to return the multiple-use philosophy of our Federal 
waters. While I am new as the Chair of this Subcommittee, my time 
holding the gavel on the Energy and Mineral Resources Subcommittee 
allowed me to see firsthand the economic impacts of heavy-handed 
Federal actions that prohibit access and commercial use.
    Whether it's making our country energy independent or to reverse 
the seafood trade deficit--and creating jobs in doing so--we can only 
accomplish these goals if we work together to ensure that we can 
responsibly capitalize on the wealth of resources that sit off of 
America's coasts.
    Today marks a good start on this dialogue and it's my hope that we 
can work with this Administration in righting some of these past 
wrongs.

                                 ______
                                 

    Mr. Webster. I also ask unanimous consent that all other 
Members' opening statements be made part of the hearing record 
if they are submitted to the Subcommittee Clerk by 5:00 p.m. 
today. Hearing no objection, so ordered.
    We will begin the opening statements, starting with myself.

   STATEMENT OF THE HON. DANIEL WEBSTER, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Webster. Today, the Subcommittee on Water, Power and 
Oceans meets to examine the impacts of Federal marine national 
monuments and marine sanctuaries, including the process by 
which they are established and implemented.
    This is an important topic for my own home state of 
Florida, for the region, and the entire country also. Many know 
Florida as the ``fishing capital of the world,'' where roughly 
2.4 million saltwater recreational anglers fish annually, and 
the state's seafood industry supports over 82,000 Florida jobs.
    To continue this way of life, commercial and recreational 
fishermen must have access to inland and ocean waters, and 
these waters must continue to have sustainable fisheries for 
generations of sportsmen who have proven to be good 
conservationists.
    The Florida Fish and Wildlife Commission is charged with 
managing the state's fisheries, and in working with the Federal 
Government to provide fishing opportunities and protect our 
natural resources. Sometimes the relationship with the Federal 
Government has not been as cooperative as it should be.
    For example, the National Park Service imposed a 10,000-
acre fishing closure in the Biscayne National Park last year 
despite significant opposition from the stakeholders and the 
Florida Fish and Wildlife Commission. This ban is within the 
state's managed waters, albeit waters on the other side of the 
state.
    The new park superintendent has told my delegation 
colleagues that she is reassessing this closure and has brought 
better communication skills to the table. That is a good thing, 
but this situation could have been avoided in the first place 
had the Federal Government been a little bit better listener.
    Today, we will hear how unilateral Federal decisions have 
impacted fisheries elsewhere in the Atlantic and the Pacific 
over the last few years when it comes to marine national 
monuments and sanctuaries. Federal decision-making directly 
impacts local citizens, local economies, and the environment. 
It is important to review how these decisions are being 
implemented and, where needed, correct or improve the laws 
guiding these decisions.
    Environmental protection and fisheries access are not 
mutually exclusive. We can and should have both. I hope today's 
hearing helps move policy in that direction. I look forward to 
hearing from the distinguished panel of witnesses.
    Mr. Huffman could not make it, so we have two subs today, 
me and Mr. Grijalva, who is recognized for his opening remarks.
    [The prepared statement of Mr. Webster follows:]
     Prepared Statement of the Hon. Daniel Webster, Vice Chairman, 
                Subcommittee on Water, Power and Oceans
    Today, the Subcommittee on Water, Power and Oceans meets to examine 
the impacts of Federal Marine National Monuments and Marine 
Sanctuaries, including the processes by which they are established and 
implemented.
    This is an important topic for my home state of Florida, for the 
region, and for the entire country. Many know Florida as the ``fishing 
capital of the world''--where roughly 2.4 million saltwater 
recreational anglers fish annually and the state's seafood industry 
supports 82,141 Florida jobs.
    To continue this way of life, commercial and recreational fisherman 
must have access to inland and ocean waters. And, these waters must 
continue to have sustainable fisheries for generations of sportsmen who 
have proven to be good conservationists.
    The Florida Fish and Wildlife Commission is charged with managing 
the state's fisheries and in working with the Federal Government to 
provide fishing opportunities and protect our natural resources. 
Sometimes the relationship with the Federal Government has not been as 
cooperative as it should be.
    As an example, the National Park Service imposed a 10,000-acre 
fishing closure in the Biscayne National Park last year despite 
significant opposition from stakeholders and the Florida Fish and 
Wildlife Commission. This ban is within state managed waters, albeit 
state waters on the other side of the state.
    The new Park Superintendent has told my delegation colleagues that 
she is re-assessing this closure and has brought better communication 
skills to the table, so that's a good thing. But, this situation could 
have been avoided in the first place had the Federal Government been a 
better listener.
    Today, we will hear how unilateral Federal decisions have impacted 
fisheries elsewhere in the Atlantic and the Pacific over the last few 
years when it comes to marine national monuments and sanctuaries. 
Federal decision-making directly impacts local citizens, local 
economies, and the environment. It is important to review how these 
decisions are being implemented, and, where needed, correct or improve 
the laws guiding these decisions.
    Environmental protection and fisheries access are not mutually 
exclusive. We can and should have both. I hope today's hearing helps 
move Federal policy in that direction. I look forward to hearing from 
our distinguished panel of witnesses.

                                 ______
                                 

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Mr. Chairman. And the Ranking 
Member from our side of the aisle, Mr. Huffman, is, as well, a 
casualty of the weather, and I will be filling in in his stead. 
Thank you again, Mr. Chairman.
    Today's hearing is not about helping fishermen catch more 
fish. If it was, we would be talking about the science proving 
that climate change is jeopardizing our fisheries.
    If the Majority wanted to help fishermen, they would be 
giving managers what they need to understand shifting stocks, 
not proposing massive budget cuts for science and monitoring. 
If they wanted to help fishermen, the Majority would abandon 
the Empty Oceans Act and work with us to preserve and 
strengthen the Magnuson-Stevens Act.
    We are not doing any of that today. Instead, this hearing 
is part of a campaign to score political points by attacking 
the Antiquities Act. Republicans are fixated on undermining 
this law, even though it has been critical to protecting 
spectacular places on land, like the Grand Canyon in my home 
state, and vital marine monuments like the one near Hawaii, 
which I cannot pronounce, and I apologize.
    Chairman Bishop has asked President Trump to allow 
industrial fishing at all marine monuments and to abolish the 
newly-designated Bears Ears Monument in Utah. He has called the 
Antiquities Act one of the most evil acts ever created and 
suggested anyone who likes the Act should die. I like the 
Antiquities Act, so I hope that his death threat is just in 
jest.
    Congress gave the President the authority to designate 
national monuments on lands already belonging to taxpayers 
because the legislative process can grind to a halt and prevent 
special places from being protected in time.
    The use of this authority by presidents of both parties, 
including for the creation of marine monuments, has been 
judicious and even patriotic.
    There should be places that are off limits to commercial 
fishing, just as there are places that are off limits to 
hunting, drilling, mining, driving, smoking, nude sunbathing, 
and other activities that may have negative consequences for 
society if allowed to occur anywhere.
    Thanks to improvements to the Magnuson-Stevens Act, the 
fishery management councils have emerged from the dark ages of 
rampant overfishing. That is progress, but councils cannot 
regulate nonfishing activities, and ocean conservation is more 
than fish farming. They deserve a seat at the table, not a 
veto.
    Marine monuments and sanctuaries are banks of biodiversity 
and productivity. Scientists agree that to sustain ecosystems 
and productive fisheries we need to set aside 30 percent of the 
ocean as no-take areas.
    Even after the recent establishment and expansion of the 
Pacific monuments, we have protected only 13 percent of our 
Exclusive Economic Zone (EEZ) and less than 1 percent outside 
of the vast Western and Central Pacific.
    The text of the Antiquities Act is clear. Congress 
explicitly authorized the President to designate ``objects of 
historic or scientific interest that are situated upon lands 
owned or controlled by the Government of the United States to 
be national monuments.'' The submerged lands beneath the EEZ 
are owned by the U.S. Government. Shipwrecks, coral reefs, 
waters, and anything in them that are situated upon these lands 
are certainly of historic and scientific interest.
    The oceans are an enormous part of our natural and cultural 
heritage, and parts of them should be preserved for posterity, 
just as Congress intended when it passed the Antiquities Act.
    Mr. Chairman, with that, I yield back.
    [The prepared statement of Mr. Grijalva follows:]
 Prepared Statement of the Hon. Raul M. Grijalva, a Representative in 
                   Congress from the State of Arizona
    Thank you, Mr. Chairman.
    Today's hearing is not about helping fishermen catch more fish. If 
it was, we would be talking about the science proving that climate 
change is jeopardizing our fisheries.
    If the Majority wanted to help fishermen, they would be giving 
managers what they need to understand shifting stocks, not proposing 
massive budget cuts for science and monitoring. If they wanted to help 
fishermen, the Majority would abandon their Empty Oceans Act, and work 
with us to preserve and strengthen the Magnuson-Stevens Act.
    We are not doing any of that today. Instead, this hearing is part 
of a campaign to score political points by attacking the Antiquities 
Act.
    Republicans are fixated on undermining this law, even though it has 
been critical to protecting spectacular places on land--like the Grand 
Canyon in my home state--and vital marine monuments like the one near 
Hawaii that I can't pronounce: Papahanaumokuakea.
    Chairman Bishop has asked President Trump to allow industrial 
fishing in all marine monuments and to abolish the newly-designated 
Bears Ears National Monument in Utah. He has called the Antiquities Act 
one of the most evil acts ever created and suggested that anyone who 
likes the Act should die.
    I like the Antiquities Act.
    Congress gave the President the authority to designate national 
monuments--on lands already belonging to the taxpayers--because the 
legislative process can grind to a halt and prevent special places from 
being protected in time. The use of this authority by presidents of 
both parties, including for the creation of marine monuments, has been 
judicious and even patriotic.
    There should be places that are off limits to commercial fishing, 
just as there are places that are off limits to hunting, drilling, 
mining, driving, smoking, nude sunbathing and other activities that may 
have negative consequences for society if allowed to occur anywhere.
    Thanks to improvements to the Magnuson-Stevens Act, the fishery 
management councils have emerged from the dark ages of rampant 
overfishing. That's progress, but councils cannot regulate non-fishing 
activities, and ocean conservation is more than fish farming. They 
deserve a seat at the table, not a veto.
    Marine monuments and sanctuaries are banks of biodiversity and 
productivity. Scientists agree that to sustain ecosystems and 
productive fisheries, we need to set aside 30 percent of the ocean as 
no-take areas.
    Even after the recent establishment and expansion of the Pacific 
monuments, we have protected only 13 percent of our Exclusive Economic 
Zone (EEZ), and less than 1 percent outside of the vast Western and 
Central Pacific.
    The text of the Antiquities Act is clear: Congress explicitly 
authorized the President to designate ``objects of historic or 
scientific interest that are situated upon lands owned or controlled by 
the Government of the United States to be national monuments.''
    The submerged lands beneath the EEZ are owned by the U.S. 
Government. Shipwrecks, coral reefs, waters and anything in them are 
situated upon these lands and are certainly of historic AND scientific 
interest. The oceans are an enormous part of our natural and cultural 
heritage and parts of them should be preserved for posterity, just as 
Congress intended when it passed the Antiquities Act.

                                 ______
                                 

    Mr. Webster. Thank you.
    Each witness' written testimony will appear in full in our 
hearing record, so I ask that the witnesses keep their oral 
remarks to 5 minutes, as outlined in the invitation letter and 
under Committee Rule 4(a).
    I also want to explain how the timing lights work. When you 
are recognized, press ``talk'' to activate the microphone. Once 
you begin your testimony, the clerk will start the timer. For 
the first 4 minutes, it will be green and then yellow after 
that. And then when red, you are to finish, complete the 
sentence you are on and stop thereafter.
    Our first witness was slated to be the Honorable Jon 
Mitchell, the Mayor of New Bedford, Massachusetts. 
Unfortunately, the weather impacted his flight, as well, and he 
could not be here today. Therefore, I ask unanimous consent 
that his written testimony be entered into the record. Without 
objection, so ordered.
    [The prepared statement of Mr. Mitchell follows:]
Prepared Statement of Jon Mitchell, Mayor, New Bedford, Massachusetts, 
      on behalf of the National Coalition for Fishing Communities
    Thank you, Chairman Bishop and members of the Committee. My name is 
Jon Mitchell. I am the Mayor of New Bedford, Massachusetts, the 
Nation's top-grossing commercial fishing port for the past 16 years. 
I'm pleased to testify today as mayor, and on behalf of the National 
Coalition for Fishing Communities, of which New Bedford is a leading 
member.
    I would like to submit my written testimony for the record, and use 
my time this morning to offer my perspective on the designation of 
permanent marine monuments under the Antiquities Act.
             the national coalition for fishing communities
    Commercial fishing is a vital business for the Nation's coastal 
communities, employing tens of thousands of people and generating 
billions of dollars in revenue. The Port of New Bedford, for example, 
generates $9 billion in direct and indirect economic output annually.
    Despite these significant economic contributions, in recent 
decades, fishermen and fishing communities have lacked the ability to 
effectively communicate industry concerns to the public at large, and 
in Washington. On issues vital to their livelihood, they often compete 
directly with well-funded and well-coordinated non-government 
organizations.
    Recognizing the need for better communication, in 2009, the non-
profit Saving Seafood was created by a small group of New Bedford-based 
industry leaders to report and aggregate news and information for our 
domestic harvesters and processors. The first major reporting effort of 
Saving Seafood led to the exposure and correction of problems in NOAA 
Fisheries' law enforcement division.
    Saving Seafood demonstrated the value of educating policymakers and 
the public about developments in the fishing industry, and that lead, 
in turn, to the formation in 2015 of the National Coalition for Fishing 
Communities.
    The Coalition's mission is to be a voice for the communities that 
depend on commercial fishing so that policymakers and the public hear 
directly from those whose lives and livelihoods are at stake.
    As the Nation's number one fishing port, New Bedford has a history 
of very active engagement on policy matters before NOAA, Capitol Hill, 
and in the White House. That is why the city decided to take a 
leadership role in founding the Coalition, and provided the initial 
seed grant which enabled its creation.
    Today the Coalition is comprised of dozens of fishing businesses 
and organizations with deep roots in port communities across country, 
from New England to the Gulf of Mexico to California to Hawaii. Our 
members represent many of the country's most valuable fisheries, like 
the Atlantic sea scallop, red crab, lobster, tuna and swordfish, to 
name just a few.
    One of the Coalition's first priorities has been to communicate the 
growing concerns of its members over insufficient consultation in the 
designation of marine monuments, including the expansion of monuments 
around Hawaii, proposed monuments off the coast of California, and the 
newly created monument off the coast of New England.
    The Coalition has brought these concerns to the press and public. 
We have worked to inform Members of Congress. We have been pleased, for 
example, to host Chairman Bishop during his recent visit with affected 
fishermen in New Bedford. And we have facilitated several meetings 
between industry and the White House Council on Environmental Quality 
(CEQ).
                        marine monument concerns
    The port communities represented by the Coalition have serious 
concerns about the impacts that monuments have had, and may continue to 
have, on the U.S. commercial fishing industry. These concerns take two 
forms: (1) poorly conceived terms of particular monument designations, 
and (2) more fundamental concerns with the process itself.
    We in New Bedford have been especially troubled by questionable 
terms of recent Northeast Canyons and Seamounts Marine Monument 
designation.
    This designation, the first in the Atlantic Ocean, was adopted 
without even the base level of scrutiny conducted for temporary ocean 
closures. For example, with little advance warning, our red crab 
industry lost access to large swaths of its historically most 
productive fishing grounds.
    The red crab fishery represents nearly 10 percent of the 240 
million pounds of seafood transported annually to New Bedford for 
processing, so this term of the monument designation has been 
particularly impactful.
    The Atlantic monument designation also established a moratorium on 
fishing in the water column above the monument seabed. This approach 
was of serious concern for our pelagic fisheries, including swordfish 
and tuna fishermen and processors. Pelagic fishermen have no impact on 
the integrity of the bathymetry and substrate that a monument is meant 
to protect, so we question the underlying basis for this particular 
restriction.
    I offer these two local examples as illustrative of a longer list 
of poorly conceived monument terms that have had unnecessary and 
harmful impacts in fishing communities nationwide.
    In addition to the New England and Mid-Atlantic fishermen impacted 
by the Atlantic designation, Coalition members around the country have 
experienced their own harm from recently designated monuments. Others 
fear the effects of proposed monuments.
    In Hawaii, previous administrations created and then expanded the 
largest marine protected area in the world, the Papahanaumokuakea 
Marine National Monument, which is now more than twice the size of 
Texas. Hawaii longline fishermen who depend on access to those waters 
are being pushed further into the open ocean to catch species like 
bigeye tuna, often in competition with foreign fishermen.
    Another monument, the Pacific Remote Islands Marine National 
Monument, also bars Hawaii fishermen from large swaths of the U.S. 
Exclusive Economic Zone.
    On the West Coast, monument proposals surfaced last year that would 
have declared virtually all offshore seamounts, ridges, and banks off 
the California coast as marine monuments, permanently closing those 
areas to commercial fishing.
    Such closures would have resulted in economic devastation for 
California fishermen and the communities that rely on the sustainable 
catch of albacore tuna, mackerel, market squid, and numerous other 
important species. These communities continue to be concerned that any 
president has the power to take these valuable grounds away from them 
with just the stroke of a pen.
    But simply pointing out instances where the monument process got it 
wrong, misses the larger issue, which is this:
    The monument designation process has evolved effectively into a 
parallel, much less robust fishery management apparatus that has, to 
date, been conducted, in all essential respects, entirely independent 
of the tried and true Fishery Management Council process provided for 
under the Magnuson Act.
    And that is precisely why, I would suggest, the monument 
designation process has consistently led to less than optimal policy 
outcomes.
    It lacks sufficient amounts of all the ingredients that good 
policy-making requires: Scientific rigor, direct industry input, 
transparency, and a deliberate pace that allows adequate time and space 
for review.
    This is especially troubling given that, unlike the ordinary 
regulatory determinations made under Magnuson, monument designations 
under the Antiquities Act are by definition permanent.
    I want to be clear on this--The designation process is not lacking 
because the agency staff, principally the White House CEQ, didn't work 
hard at their assignment. The officials involved with the Atlantic 
monument designation with whom I interacted were all, to a person, 
earnest, professional, and well-intentioned. But they were operating 
without a solid, consistent procedural framework and they lacked the 
resources and familiarity with commercial fishing operations necessary 
to do their task justice.
    In contrast, the Fishery Management Council process is far from 
perfect, but it affords ample, structured opportunities for 
stakeholders and the public alike to study and comment on policy 
decisions and for the peer reviewing of the scientific bases for those 
decisions.
    For its part, the Port of New Bedford has been an active 
participant in the New England Fishery Management Council. Our fishing 
interests are directly affected by the decisions made by the New 
England Fishery Management Council and NOAA Fisheries, and we don't 
hesitate to use the Council process to challenge regulatory approaches 
with which we disagree.
    That said, there is a process in place that allows industry 
concerns to be aired; a process in place for revisiting management 
decisions to account for new data; and a process in place that, at its 
best, finds creative policy solutions that respect the interests of 
competing stakeholders.
    I would argue that the continued use of a parallel process outside 
Magnuson, outside the Management Councils--however well-meaning--
ultimately works against the long-run interests of all stakeholders.
    We all lose when the checks and balances employed in the NOAA 
process are abandoned. A decision-making process driven by the simple 
assertion of executive branch authority ultimately leaves ocean 
management decisions permanently vulnerable to short-term political 
considerations. Such an outcome is cause for deep concern no matter 
one's position in the current policy debates.
    So I encourage the Committee to explore ways to integrate the 
executive branch's monument authority with proven processes established 
under the Magnuson Act.
    This Congress has an important opportunity to restore the 
centrality of Magnuson's Fishery Management Councils to their rightful 
place as the critical arbiters of fisheries management matters.
    Doing so would give fishing communities much more confidence in the 
way our Nation approaches fisheries management. And it could give the 
marine monument designation process the credibility and acceptance that 
it regrettably lacks today.

                                 ______
                                 

    Questions Submitted for the Record by Rep. Lamborn to Mayor Jon 
              Mitchell, City of New Bedford, Massachusetts
    Mayor Mitchell, the New England and Mid-Atlantic Regional Fishery 
Management Councils (Councils) have both conducted habitat amendments 
in the past few years, both focusing on protecting unique, productive 
habitat.

    Question 1a. Through the use of such habitat amendments, closed 
areas, and fishery management plans, do you believe the regional 
councils have the tools available and the desire to balance ecosystem 
protection with economic productivity?

    b. Do you believe that these tools, when properly used by the 
Councils, can achieve the same goals of ecosystem protection as the 
Northeast Canyons and Seamounts Marine National Monument?

    Answer. Since I took office as Mayor of New Bedford nearly 6 years 
ago, I have had the opportunity to appear before the New England 
Fishery Management Council on numerous occasions regarding matters 
impactful to the Port of New Bedford, the Nation's leading commercial 
fishing port for the past 16 years.
    As a knowledgeable observer of the Council's work and a participant 
in the Council's processes, I believe I can offer the Subcommittee an 
informed, independent assessment of the institutional capacity of the 
Council, as well as remark on the manner in which it conducts its 
affairs.
    On both these counts--and in response to your query--I would argue 
that the Council has both the resources and the approach necessary to 
achieve ecosystem protection (while balancing economic productivity) 
commensurate with any protections that could be pursued in conjunction 
with a monument designation under the Antiquities Act.
    Moreover, I am convinced that the use of the processes established 
under the Magnuson Act are at least equal in their utility in 
protecting the marine environment as any monument designation; and in 
fact, Magnuson-based processes--like the Fishery Councils--are far 
superior.
    I believe this to be the case because I have witnessed firsthand 
the strengths of the Fishery Council's deliberative- and decision-
making processes. As I recounted in my written testimony, while the 
Council process may not have, at times, produced specific policy 
outcomes sought by the Port of New Bedford and commercial fishing 
interests, the Council has generally demonstrated a commitment to:

    <bullet> soliciting industry input,

    <bullet> transparent deliberation,

    <bullet> a structured approach that provides time for ample 
            discussion,

    <bullet> a reliance on peer-reviewed scientific research, and

    <bullet> a willingness to revisit prior policy based on new 
            information.

    The processes used to develop the Northeast Canyons and Seamounts 
designation were in no way comparable on any of these metrics. My 
comparative confidence in the Council process is illustrated by two 
recent examples:
Mid-Atlantic Deep-Sea Coral Protection Area
    A particularly remarkable conservation achievement under the 
Fishery Council process, is the Frank R. Lautenberg Deep-Sea Coral 
Protection Area which was designated by the Mid-Atlantic Fishery 
Management Council (MAFMC). This protected area, approved in a June 
2015 MAFMC amendment and finalized by NOAA Fisheries and the MAFMC at 
the end of last year, covers over 38,000 square miles of Federal waters 
off the Mid-Atlantic coast, an area roughly the size of Virginia.
    Commercial fishermen provided extensive input to fisheries managers 
in a collaborative effort to close off the protected area to most types 
of bottom-tending fishing gear, such as trawls, dredges, bottom 
longlines, and traps. As the chairman of the MAFMC noted afterwards, 
this action brought together a broad range of stakeholders, including 
Council members, fishermen and industry representatives, scientists, 
and environmental groups, to reach a consensus on the boundaries of the 
protected area.
    The area designated for protection was informed by research from 
NOAA and the Bureau of Ocean Energy Management, including deep sea 
surveys and the creation of a predictive deep sea coral habitat 
suitability model. Based on this information, the Council's advisory 
panels, deep sea coral experts, and fishing industry members worked 
cooperatively to identify the boundaries of the protected area.
    The resulting protected area was praised by environmentalists and 
fishermen alike. The Pew Charitable Trusts wrote that it would ``cement 
a conservation legacy for the Mid-Atlantic,'' while a representative of 
Mid-Atlantic commercial fishermen called the process a ``model for 
developing targeted habitat protection.'' Groups and individuals 
involved in the process won several awards including the Urban Coastal 
Institute Regional Champion of the Ocean Award, which was presented to 
the MAFMC.
New England Council Omnibus Habitat Amendment 2
    Another example of the effectiveness of the Council process is the 
Omnibus Habitat Amendment 2 (OHA2) passed last June by the New England 
Fishery Management Council (NEFMC) and awaiting final approval by NOAA. 
Passed after more than a decade of work, OHA2 ensures that essential 
and vulnerable New England habitats, such as the Gulf of Maine, Georges 
Bank, and areas in the Great South Channel, are protected based on the 
most up-to-date science.
    New technologies have allowed researchers to map and analyze the 
ocean floor, informing them about which areas of the seabed are most 
susceptible to harm from fishing gear, and which areas are hotspots for 
groundfish spawning. OHA2 incorporates this science, increasing the 
amount of overall habitat-specific protected areas in the region while 
opening up areas that are no longer considered important for 
successfully conserving fish stocks.
    The development of OHA2 was deliberative and collaborative, with 
input from Federal and state regulators, environmental groups, 
scientists and academics, and members of the fishing industry. This 
amendment has been carefully crafted to ensure that marine resources 
are better protected than ever, while helping those who make their 
living on the water.
    I hope this response proves useful to you and members of the 
Subcommittee in your continued deliberations. If there is any way I can 
assist the work of the Subcommittee in the future, please do not 
hesitate to contact me. Thank you again for your invitation.

                                 ______
                                 

    Mr. Webster. Our second witness is Dr. John Bruno, 
Professor, Department of Biology at the University of North 
Carolina at Chapel Hill.
    Professor Bruno, you are now recognized for 5 minutes.

   STATEMENT OF JOHN BRUNO, Ph.D., PROFESSOR, DEPARTMENT OF 
   BIOLOGY, UNIVERSITY OF NORTH CAROLINA, CHAPEL HILL, NORTH 
                            CAROLINA

    Dr. Bruno. Good morning.
    I grew up on the Loxahatchee River in south Florida fishing 
for snook and blue fish.
    And how do I advance the slides? Just look at you?
    I passed some of that love of fish and fishing on to my 
daughters. We typically go to the Florida Keys for our summer 
vacations. This is my daughters fishing in the national marine 
sanctuary down in the Keys outside of Marathon. So, at a 
personal level, that is why I support the creation of national 
parks in the ocean.
    As a scientist, I can tell you there is overwhelming 
science that marine parks greatly increase the biomass, 
density, size, and diversity of marine fishes. That often leads 
to what we call a spillover effect, where either as babies or 
as adults some proportion of those fishes leave the protected 
area, where they are then caught by fishermen. And fishermen 
know this, and they typically focus their fishing efforts right 
around the edges of these parks, as you can see here from a 
Mediterranean fishery of lobster.
    Another huge benefit of marine parks is the restoration and 
protection of large vertebrate predators. My lab just published 
a study last week where we found that 90 percent of the sharks, 
barracuda, and grouper are gone from Caribbean reefs. The only 
places we still find these predators are in the marine 
reserves, which are a tiny postage stamp of coverage. The 
benefit of having predators, aside from their inherent value, 
is restoring key ecological interactions to the system.
    Female fishes produce more and higher-quality eggs as they 
grow old, large, and fat. In fact, the relationship is 
exponential. So, the number one priority of increasing the 
productivity and stability of fisheries management is to 
protect these large, old females. And the best way to do that 
is to set aside small areas where they can grow large, be 
happy, and produce lots of babies.
    But, of course, that is not the primary purpose of our 
national monument designations in the ocean or of our general 
marine park system; it is to preserve biodiversity and whole 
ecosystems, which are made up of tens of thousands of species, 
including corals that live in the deep sea, all the fishes and 
marine mammals that inhabit the water column, and the seabirds 
in the air over the surface and on the small atolls in the 
system. These components of biodiversity cannot and are not 
conserved or managed by traditional fisheries management tools 
like the Magnuson-Stevens Act.
    I am sure you are all aware that the oceans are rapidly 
warming. One hundred percent of this warming is due to 
greenhouse gas emissions. There is no scientific question about 
that. Warming is having a huge impact on ocean ecosystems. I 
consider it the biggest threat both to marine parks as well as 
to fisheries. Nobody is going to be fishing for lobster in New 
England a decade or two from now because they are all migrating 
north into Canada. The tropical tuna fishery is going to shut 
down by the end of the century. Tuna can only survive 
temperatures up to 34-35+ C. They are not going to be happy 
when it is 36-38+ C in the end of the summers. So, we really 
need to come together and tackle this problem collaboratively 
together.
    We have made great progress in expanding our national parks 
in the ocean over the last 10 to 15 years, but still, only a 
tiny percentage is protected, about 3 percent globally, in a 
park. Only about 1 to 1.5 percent is protected strongly.
    We recently expanded the size of both the Papahanaumokuakea 
Reserve as well as the Pacific Remote Islands Reserves. And 
that was based on new science that came in indicating that many 
of the target species were moving outside of the reserve, 
increasing their risk of accidental capture.
    For example, this is a recent result for great reef sharks 
where they were satellite tagged around Palmyra, and they are 
moving, you know, 10, 20, 100 kilometers. The square is the 
original park boundary. We have expanded it to include at least 
a larger proportion of their range.
    The same is true for seabirds. Many of them will travel 
hundreds of kilometers while they are catching fish for their 
young, then return to the park to feed their young. Expanding 
the reserve out to the 200-mile limit of our EEZ greatly 
increased the protection of these highly threatened species. We 
have lost 70 percent of the world's seabirds over just the last 
couple decades, and fisheries bycatch is the number one cause 
of that.
    So, to conclude, I will just say we have made huge progress 
in ocean conservation primarily by expanding our protection 
particularly in our U.S. waters over the last 10 to 20 years. 
These are the only places, as a scientist, I can go and study 
natural interactions. It is the only place large predators 
exist. And these are critical baselines so we can monitor and 
track the impacts of climate change on natural ecosystems.
    Thank you.
    [The prepared statement of Dr. Bruno follows:]
  Prepared Statement of John F. Bruno, PhD, Professor, Department of 
        Biology, the University of North Carolina at Chapel Hill
    Chairman Lamborn and Ranking Member Huffman, my name is John Bruno 
and I am a marine community ecologist and Professor of Biology at the 
University of North Carolina at Chapel Hill.
    I appreciate the invitation to talk with you today about marine 
reserves and how they simultaneously benefit people and wildlife.
    Our ocean ecosystems are being degraded by a range of factors such 
as plastic pollution, over-fishing, and global warming.<SUP>1-4</SUP> 
Nearly a billion people (including tens of millions of Americans) 
depend on healthy ocean ecosystems for their food and livelihoods. 
Whether through the seafood we eat, our jobs in the fisheries and 
tourism industries, or via recreation and personal enrichment, nearly 
all of us benefit from clean and healthy oceans.
    Marine reserves are a proven policy tool that can lead to win-win 
ocean stewardship:

    <bullet> Dozens of studies indicate that well-designed and strictly 
            enforced reserves increase the density, diversity and size 
            of fishes, invertebrates and other marine organisms 
            important to recreational and commercial 
            fishermen.<SUP>5-8</SUP> Fish biomass in fully protected 
            reserves quickly grows to be fourfold greater on average 
            than in fished areas.<SUP>9</SUP>

    <bullet> Reserves contain more apex predators, many of which are 
            rare or absent from unprotected areas.<SUP>9</SUP> Edgar et 
            al.<SUP>5</SUP> report that shark biomass is 14 times 
            greater and the number of large fish species was 36 percent 
            greater in Marine Protected Areas (MPAs, which includes 
            fully protected marine reserves and other protected areas 
            where fishing is limited but not banned). Likewise, 
            Valdivia et al. found that apex predators are almost 
            entirely restricted to marine reserves that cover only a 
            small fraction of the Caribbean.<SUP>10</SUP>

    <bullet> The restoration of many fished predatory species in 
            reserves (e.g., sharks, grouper, lobster, etc.) restores 
            key ecological functions and species interactions that can 
            have strong cascading effects on lower trophic 
            levels.<SUP>11-13</SUP>

    <bullet> Big, old, fat, and fecund female fishes (BOFFFFs) 
            contribute a large number of eggs that produce future 
            generations. The presence and successful reproduction by 
            large fish generally leads to greater larval recruitment, 
            population growth rate, and fisheries productivity and 
            sustainability. Marine reserves are the best way to protect 
            large females, enabling them to grow old and large, thereby 
            enhancing fisheries productivity, and 
            stability.<SUP>14</SUP>

    <bullet> The increased population density and reproductive output 
            seen within well-designed and enforced reserves often leads 
            to a ``spillover effect'' when adult and juvenile (or 
            larval) fishes migrate outside of the reserve where they 
            are then captured by recreational or commercial 
            fishers.<SUP>15-18</SUP> This ``leaky'' aspect of marine 
            reserves is one of their primary benefits to fisheries and 
            is a phenomenon well-known to fishers, whom tend to 
            concentrate fishing on reserve boundaries (termed ``fishing 
            the line''). Spillover can offset the loss of fisheries 
            catch caused by the implementation of 
            reserves.<SUP>18</SUP>

    <bullet> For some species and systems, marine reserves may increase 
            resistance to or recovery from human-caused disturbances 
            like ocean warming and acidification. For example, by 
            increasing population size, and thus genetic diversity, 
            reserves can increase the adaptive potential (i.e. 
            resilience) of populations to changing environmental 
            conditions.<SUP>19</SUP> Thus, reserves can counteract the 
            deleterious loss of genetic diversity caused by 
            overfishing.

    <bullet> These and other positive outcomes for harvested species 
            protected in marine reserves have obvious commercial 
            benefits, not only for fisheries but also for other 
            commercial enterprises such as shark and other SCUBA-based 
            tourism.

    Research over the last 10-15 years has refined the reserve 
characteristics that can maximize benefits to humanity and improve the 
conservation of biodiversity. A recent synthesis found that to meet the 
biodiversity and fisheries goals of MPAs, global coverage needs to be 
increased from its current extent of just 3 percent (of which 1.6 
percent is ``strongly protected'') to 30 percent or greater 
<SUP>20</SUP> (note for U.S. waters: 16.5 percent in MPAS and 13.5 
percent in no take reserves).
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    In a synthesis of studies of the effectiveness of 87 MPAs 
around the world, Edgar et al.<SUP>5</SUP> identified five features 
that influenced conservation and economic outcomes:

  1.  Level of protection: Fully protected or ``no-take'' reserves are 
            far more effective than general use MPAs where harvesting 
            is only partially restricted.<SUP>7</SUP>

  2.  Enforcement: The effective and durable compliance with and 
            enforcement of fisheries restrictions is crucial to reserve 
            success. Most MPAs and reserves around the world are poorly 
            enforced and amount to little more than ``paper parks'' 
            that achieve no measurable outcomes for people of 
            wildlife.<SUP>5,<square )>21</SUP>

  3.  Reserve age: Many of the benefits of reserves accrue over time, 
            e.g., trophic cascades are restored as predator populations 
            recover. Effective reserves are generally at least 10 years 
            old (i.e., have been enforced for 10 or more years) and 
            often 25-40 years old.<SUP>13,<square )>22</SUP> An 
            exception is when an area was relatively pristine when 
            protection began, as in the Papahanaumokuakea Marine 
            National Monument.<SUP>23,<square )>24</SUP>

  4.  Reserve size: Given the movement of many fishes, and marine birds 
            and mammals, size can be a key feature defining reserve 
            success. Small size is a primary reason so many MPAs fail. 
            If animals frequently swim or fly outside the reserve 
            boundary, it will have limited positive effects on their 
            populations.

  5.  Isolation: Effective coastal reserves are typically isolated by 
            deep (75 ft.) water from fished habitat. This feature 
            appears to have the largest effect on biomass and diversity 
            and is thought to limit the movement of animals out of the 
            protected area.

          [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
            

    .epsEdgar et al.<SUP>5</SUP> found that reserve success was much 
more likely when three or more of the ``NEOLI'' features (no take, 
enforced, old, large and isolated) were met. Reserves that met only one 
or two NEOLI criteria rarely had greater fish biomass than unmanaged 
locations. When all five criteria were met, total fish, total large 
fish, and total shark biomass increased by 244 percent, 840 percent and 
1,990 percent, respectively <SUP>5</SUP> (see graphics above from Edgar 
et al.<SUP>5</SUP>). The few reserves that met this standard were 10-20 
times more effective than reserves with only three NEOLI features. This 
and numerous similar studies emphasize the crucial importance of design 
and post-implementation management features in marine reserve outcomes.
    There is also a growing consensus in the field that ecosystem 
representativeness, locations with unique geological and/or 
biodiversity attributes, and the global change context be considered 
when planning reserve implementation at regional or global scales.
Papahanaumokuakea Marine National Monument
    The PMNM is a rare example of a near-pristine 
<SUP>23,<square )>24</SUP> marine reserve that includes all five NEOLI 
features considered essential for maximum efficacy. It also encompasses 
a unique high latitude coral reef ecosystem, is inhabited by endangered 
species including the Hawaiian monk seal, and probably most importantly 
it is predicted to warm far less than most other tropical systems this 
century (see graphic below). Tropical MPAs are highly threatened by 
ocean warming: the predicted average warming under the IPCC A2 
emissions scenario for tropical MPAs is 3 +C for annual mean Sea 
Surface Temperature and 6 +C for maximum annual SST by 2100. It is 
believed that many topical marine species cannot survive warming of 
this magnitude. Although some will migrate to higher latitudes, many 
will go extinct and biodiversity in these ecosystems will likely crash 
regardless of local protection from fishing and other stressors. 
Therefore, at least some conservation resources should be focused on 
the small subset of marine ecosystems that will experience 
substantially less warming and are likely to survive the century, 
regardless of our national energy policy (i.e., as an insurance policy 
against a worse-case climate scenario). In addition, PMNM offers an 
additional benefit given that its extent, stretching from tropics 
through the subtropics, and orientation may offer an important 
migration pathway for species retreating from climate change.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    Predicted increase in Maximum SST (+C in 2100) for the Hawaiian 
Islands (left) compared to that for the coral triangle in the western 
Pacific (right). Based on the coupled ocean-atmosphere model 
simulations (CMIP3 downscaled to 9.5 <greek-e> 9.5km) under the A2 
high/business-as-usual emissions scenario. Maximum SST for coral reefs 
of the Papahanaumokuakea reserve are predicted to increase by <2.5 +C 
compared to 3-8 +C for much of the western Pacific.

    The PMNM reserve was recently expanded based in part on new science 
detailing the movements of many of the target species (information that 
was not available for the original design and designation). For 
example, recent findings indicate that numerous ecologically important 
apex predators travel beyond the historical 50nmi PMNM 
boundaries.<SUP>25-27</SUP> The larger 200nmi boundary provides a 
minimum buffer for these species, reducing the risk of mortality and 
populations declines. White et al. found that grey reef sharks swim far 
beyond the original 50nmi boundaries of Palmyra Atoll in the Pacific 
Remote Islands Marine National Monument (see graphic below). Maxwell 
and Morgan 2013 report that many species of breeding seabirds 
frequently forage at distances well over 50 nm from their colonies, 
where they rely on schools of predatory fish like tuna to drive small 
fish to the surface.<SUP>26</SUP>
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    Left: Movement of six satellite tagged grey reef sharks 
(Carcharhinus amblyrhynchos) at Palmyra Atoll.<SUP>25</SUP> Right: 
foraging ranges of seabirds (thin lines) and tuna (thick lines), 
centered around Johnston Atoll, part of the U.S. Pacific Remote Islands 
Marine National Monument. Maximum foraging ranges and median lifetime 
displacement are shown in () following species names or abbreviations. 
RTTB: red-tailed tropicbird; GFRI: great frigatebird; SOTE: sooty tern; 
WTSH: wedge-tailed shearwater; MABO: masked booby; WTTB: white-tailed 
tropicbird; BRNO: brown noddy; BRBO: brown booby; RFBO: red-footed 
booby; BLNO: black noddy; BGNO: blue-grey noddy.<SUP>26</SUP>

    The PMNM's deep-sea beds more than 1,000 feet down are home to 
black corals, which bide their time in quiet currents and virtual 
darkness and are among the oldest animals on earth, living for 
thousands of years. Typical shallow water coral colonies are highly 
productive and fueled by sunlight; black corals slow their metabolisms 
to a crawl, with centuries clicking by like years to a human. Hawaii 
researchers explored a forest of large colonies of the black coral, 
Leiopathes glaberrima, living in deep water throughout the Hawai'ian 
Islands. The oldest specimens elongate branches at about \1/64\ of an 
inch a year, about the width of four hairs. Isotope aging of the 
skeletons showed that some of these simple animals had been living for 
over 4,000 years: before some the pyramids of Egypt were built. 
Leiopathes looks like a gangly explosion of orange wire, 3-6 feet high, 
with bright orange polyp flowers spread across comb-like branches that 
sprout in chaotic tangles from tough black stems. All are fragile, like 
blown glass sculptures, and are found only where the water is cold and 
calm. If subjected to strong currents, the smallest wave, or barest 
touch of a rogue fishing net, a black coral would be destroyed.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

U.S. Pacific Remote Islands Marine National Monument
    The PRIMNM is a reserve network that surrounds five remote and 
near-pristine atoll groups in the central Pacific (Wake, Johnston, 
Howland and Baker, Kingman and Palmyra, and Jarvis). The coral reefs 
and shallow seas surrounding these atolls support some of the few 
remaining intact tropical coral reef ecosystems on earth. Coral cover 
is substantially higher than average and the biomass of predatory 
fishes is extraordinary.<SUP>28,<square )>29</SUP> The PRIMNM was 
expanded in 2014 to better protect highly migratory species that 
inhabit the nearshore reefs and offshore seamounts including sharks, 
tuna, and marine mammals (such as false killer whales, melon-headed 
whales, spotted dolphins, minke, and humpback whales). As with PMNM, 
science has shown that several keystone species have migratory and 
forage ranges that extend well beyond the original 50 nm boundary. They 
are also crucial habitat to numerous other threatened and at-risk 
species including humphead wrasses, humphead parrotfishes, and seabird 
populations. Seabirds are an important and disproportionately 
threatened group of birds, which have declined by almost 70 percent 
since 1950.<SUP>30</SUP> After the expansion, these atoll reserves now 
have all five NEOLI features.
Flower Garden Banks National Marine Sanctuary
    NOAA has proposed to expand the FGNMS to buffer the unique coral 
reefs within the current boundaries from chemical contamination from 
nearby extractive activities and to add protection for several other 
deeper sea mounts (formally on salt domes). These additional sites 
contain a remarkable diversity of sponge and deep sea coral communities 
and are essential fish habitat for the region. The FGNMS currently 
meets four of the five NEOLI criteria; all except size (it is currently 
rather small). The coral communities within the FGNMS have by far the 
highest living coral cover of any reefs in the southwest Atlantic (mean 
living coral cover on the FGNMS reefs is 60 percent, compared to the 
Caribbean average of 15 percent <SUP>31,<square )>32</SUP>). Moreover, 
these reefs are still dominated by massive Orbicella faveolota and O. 
franksi colonies (see image below), species federally listed as 
threatened under the U.S. endangered species act. At nearly every other 
reef in the Caribbean, Orbicella corals have been wiped out by disease 
and bleaching due to ocean warming. They have survived within the FGNMS 
because these reefs are warming more slowly than the Greater Caribbean. 
These Orbicella populations need additional protection to ensure their 
survival and to act as larval sources for the highly degraded 
populations in the Florida Keys and other U.S. reefs in the Caribbean 
(e.g., Puerto Rico). Additionally, the fish community in the FGNMS is 
near pristine and boasts the highest predatory fish biomass in the 
region.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    Orbicella colonies of the FGBNMS. Photo by William Precht.

Northeast Canyons and Seamounts Marine National Monument
    At just under 5,000 square nautical miles, the Northeast Canyons 
and Seamounts Marine National Monument is by far the smallest of the 
marine monuments created under President Obama and yet it encompasses 
two distinct areas of unique habitat in the United States' north 
Atlantic Exclusive Economic Zone, with the closest point of the NCSMNM 
to land being roughly 150 miles east southeast of Cape Cod, MA. The 
northern area includes a section of the continental shelf that includes 
three canyon complexes--Oceanographer, Gilbert, and Lydonia Canyons--
each of which plunges deeper than the Grand Canyon from the southeast 
edge of Georges Bank to the deep seabed. The southwest area encompasses 
the only four seamounts in the U.S. Atlantic EEZ. These underwater 
mountains loom up from the deep ocean, to a height taller than any 
mountain east of the Rockies. Together, these features and the water 
column above them provide habitat for countless species, from ancient, 
thousand year-old coral structures the size of small trees, to 
threatened seabirds, whales, and other marine mammals, which feed on 
the nutrients welling up from the deep ocean around the canyon heads. 
Ocean warming in this area has been a major concern, with the Gulf of 
Maine just north of Georges Bank warming faster than 99 percent of the 
world's oceans.<SUP>33</SUP> Ocean warming has already taken a toll on 
fisheries in this region, particularly the lobster fishery, which has 
declined precipitously in southern New England in recent years. 
Protecting these areas free from further commercial activity will not 
only safeguard these living resources from potentially damaging 
encounters with fishing gear, but also provide scientists a living 
laboratory in which to measure and quantify the impact of warming and 
acidifying oceans on these species in an environment otherwise free of 
human interference.
Conclusion
    The United States has made substantial progress in protecting our 
marine resources via the implementation and expansion of several 
critical marine reserves. We lead the world in this regard, with nearly 
15 percent of our national waters within no-take marine reserves (up 
from 6 percent in 2014). This common-sense zoning of recreational and 
commercial activities is maximizing the economic output of our oceans 
while ensuring sustainable use and the conservation of biodiversity for 
the long term.
                            literature cited
1. McCauley DJ, Pinsky ML, Palumbi SR, et al. Marine defaunation: 
Animal loss in the global ocean. Science (80-). 2015;347(6219):247-254. 
doi:10.1126/science.1255641.

2. Poloczanska ES, Brown CJ, Sydeman WJ, et al. Global imprint of 
climate change on marine life. Nat Clim Chang. 2013;3(10):919-925. 
doi:10.1038/nclimate1958.

3. Halpern B, Walbridge S, Selkoe K, et al. A global map of human 
impact on marine ecosystems. Science (80-). 2008;319(February):948-952. 
doi:10.1126/science.1149345.

4. Bruno JF, Selig ER. Regional decline of coral cover in the Indo-
Pacific: timing, extent, and subregional comparisons. PLoS One. 
2007;2(8):e711. doi:10.1371/journal.pone.0000711.

5. Edgar GJ, Stuart-Smith RD, Willis TJ, et al. Global conservation 
outcomes depend on marine protected areas with five key features. 
Nature. 2014;506(7487):216-220. doi:10.1038/nature13022.

6. Halpern BS, Warner RR. Marine reserves have rapid and lasting 
effects. Ecol Lett. 2002;5(3):361-366. doi:10.1046/j.1461-
0248.2002.00326.x.

7. Lester S, Halpern B. Biological responses in marine no-take reserves 
versus partially protected areas. Mar Ecol Prog Ser. 2008;367:49-56. 
doi:10.3354/meps07599.

8. Lester SE, Halpern BS, Grorud-Colvert K, et al. Biological effects 
within no-take marine reserves: a global synthesis. 2009;384:33-46. 
doi:10.3354/meps08029.

9. Halpern BS. The impact of marine reserves: Do reserves work and does 
reserve size matter? Ecol Appl. 2003;13(1 SUPPL.). doi:10.1890/1051-
0761(2003)013[0117:tiomrd]2.0.co;2.

10. Valdivia A, Cox CE, Bruno JF. Predatory fish depletion and recovery 
potential on Caribbean reefs. 2017;(iii):1-12. doi:10.1126/
sciadv.1601303.

11. Myers R, Baum JK, Shepherd TD, et al. Cascading effects of the loss 
of apex predatory sharks from a coastal ocean. Science. 
2007;315(5820):1846-1850. doi:10.1126/science.1138657.

12. Mumby PJ, Harborne AR, Williams J, et al. Trophic cascade 
facilitates coral recruitment in a marine reserve. Proc Natl Acad Sci. 
2007;104(20):8362-8367. doi:10.1073/pnas.0702602104.

13. Edgar GJ, Barrett NS, Stuart-Smith RD. Exploited reefs protected 
from fishing transform over decades into conservation features 
otherwise absent from seascapes. Ecol Appl. 2009;19(8):1967-1974. 
doi:10.1890/09-0610.1.

14. Hixon MA, Johnson DW, Sogard SM. Structure in fishery populations. 
ICES J Mar Sci. 2014;71(1914):2171-2185. doi:10.1093/icesjms/fst200.

15. Cudney-Bueno R, Lavin MF, Marinone SG, et al. Rapid effects of 
marine reserves via larval dispersal. PLoS One. 2009;4(1):e4140. 
doi:10.1371/journal.pone.0004140.

16. Gell FR, Roberts CM. Benefits beyond boundaries: the fishery 
effects of marine reserves. 2003;18(9):448-455. doi:10.1016/S0169-
5347(03)00189-7.

17. Roberts CM, Bohnsack JA, Gell F. Effects of marine reserves on 
adjacent fisheries. 2001;294(November):1920-1923.

18. Goni R, Hilborn R, Diaz D, et al. Net contribution of spillover 
from a marine reserve to fishery catches. 2010;400:233-243. 
doi:10.3354/meps08419.

19. Pinsky ML, Palumbi SR. Meta-analysis reveals lower genetic 
diversity in overfished populations. Mol Ecol. 2014;23(1):29-39. 
doi:10.1111/mec.12509.

20. O'Leary BC, Winther-Janson M, Bainbridge JM, et al. Effective 
coverage targets for ocean protection. Conserv Lett. 2016;0(0):1-6. 
doi:10.1111/conl.12247.

21. Cox C, Valdivia A, McField M, et al. Establishment of marine 
protected areas alone does not restore coral reef communities in 
Belize. Mar Ecol Prog Ser. 2017;563(1):65-79. doi:10.3354/meps11984.

22. Selig ER, Bruno JF. A global analysis of the effectiveness of 
marine protected areas in preventing coral loss. PLoS One. 
2010;5(2):e9278. doi:10.1371/journal.pone.0009278.

23. Friedlander A, DeMartini E. Contrasts in density, size, and biomass 
of reef fishes between the northwestern and the main Hawaiian islands: 
the effects of fishing down apex predators. Mar Ecol Prog Ser. 
2002;230:253-264. doi:10.3354/meps230253.

24. Selkoe KA, Halpern BS, Ebert CM, et al. A map of human impacts to a 
``pristine'' coral reef ecosystem, the Papahanaumokuakea Marine 
National Monument. Coral Reefs. 2009;28(3):635-650. doi:10.1007/s00338-
009-0490-z.

25. White TD, Carlisle AB, Kroodsma DA, et al. Assessing the 
effectiveness of a large marine protected area for reef shark 
conservation. Biol Conserv. 2017;207:64-71. doi:10.1016/
j.biocon.2017.01.009.

26. Maxwell SM, Morgan LE. Foraging of seabirds on pelagic fishes: 
Implications for management of pelagic marine protected areas. Mar Ecol 
Prog Ser. 2013;481(Field 1998):289-303. doi:10.3354/meps10255.

27. Young HS, Maxwell SM, Conners MG, et al. Pelagic marine protected 
areas protect foraging habitat for multiple breeding seabirds in the 
central Pacific. Biol Conserv. 2015;181:226-235. doi:10.1016/
j.biocon.2014.10.027.

28. Smith JE, Brainard R, Carter A, et al. Re-evaluating the health of 
coral reef communities: baselines and evidence for human impacts across 
the central Pacific. Proc R Soc B Biol Sci. 2016;283(August):20151985. 
doi:10.1098/rspb.2015.1985.

29. Sandin S, Smith JE, Demartini EE, et al. Baselines and degradation 
of coral reefs in the Northern Line Islands. PLoS One. 2008;3(2):e1548. 
doi:10.1371/journal.pone.0001548.

30. Paleczny M, Hammill E, Karpouzi V, et al. Population trend of the 
world's monitored seabirds, 1950-2010. PLoS One. 2015;10(6):1-11. 
doi:10.1371/journal.pone.0129342.

31. Schutte V, Selig E, Bruno J. Regional spatio-temporal trends in 
Caribbean coral reef benthic communities. Mar Ecol Prog Ser. 
2010;402:115-122. doi:10.3354/meps08438.

32. Jackson J, Donovan M, Cramer K, et al. Status and trends of 
Caribbean coral reefs: 1970-2012. 2014:306.

33. Pershing AJ, Alexander MA, Hernandez CM, et al. Slow adaptation in 
the face of rapid warming leads to collapse of the Gulf of Maine cod 
fishery. Science (80-). 2015;350(6262):809-812. doi:10.1126/
science.aac9819.

                                 ______
                                 

   Questions Submitted for the Record to Dr. John Bruno, Professor, 
   Department of Biology, University of North Carolina at Chapel Hill

Dr. Bruno did not submit responses to the Committee by the appropriate 
deadline for inclusion in the printed record.

                  Questions Submitted by Rep. Grijalva
    Question 1. One of the witnesses described the tuna fishing by 
purse seine in the Pacific as benign because the fishing gear does not 
touch and destroy the bottom and is not destructive to ocean 
ecosystems. Longline fishing has been described the same way by 
industry interests. Can you explain the impacts that purse seine and 
longline fishing has on other components of the ecosystem such as 
seabirds, sea turtles, bycatch, and populations of different tunas? 
What impact does this have on other species or ecosystem functions?

    Question 2. While some areas of the EEZ like the U.S. Western and 
Central Pacific have received protections, other areas, like the U.S. 
Atlantic and Gulf coasts and marine waters, have received little to no 
protection. What does science tell us about the impact on fisheries and 
ecosystems due to a lack of marine reserves in the areas? Are there 
certain types of areas in the Atlantic and Gulf that you believe 
deserve to be considered for inclusion in marine reserves?

                  Questions Submitted by Rep. Tsongas
    I do not represent a coastal district, but the history, culture, 
and economy of Massachusetts have been inextricably linked to the 
health of our ocean for centuries. Massachusetts is home to one of the 
Nation's most historic fishing industries, and remains the lifeblood of 
many communities. We are also home to world-class ocean research 
institutions and beautiful vacation destinations, both of which are 
sustained by our connection to the ocean.
    We have a generational responsibility to protect the health of our 
ocean so that it will continue to be a sustainable resource for our 
children and grandchildren. That's why I supported the President's 
creation of the first national marine monument in the Atlantic Ocean. 
In doing so, it will protect fragile ecosystems off the coast of New 
England, including pristine undersea canyons and seamounts, and help 
scientists better understand the impacts of climate change in our 
ocean. In fact, according to a recent study, New England is one of the 
most vulnerable regions in the country to these changing ocean 
conditions due to our economic dependence on shellfish such as 
scallops, oysters, mussels, and clams.
    Like the land management challenges on our public lands, we face 
similar challenges in our Federal waters to balance the needs of many 
competing users, which we must take seriously.

    Question 1. Dr. Bruno, how will the Northeast Canyons and Seamounts 
Marine National Monument protect fish habitats and promote the long-
term sustainability of Northeast fisheries?

    Question 2. How will the Northeast monument help scientists better 
understand the impacts of climate change in our oceans? How will this 
research benefit the commercial fishing industry?

                                 ______
                                 

    Mr. Webster. Thank you for your testimony.
    And now I ask unanimous consent that the gentlelady from 
American Samoa, Mrs. Radewagen, be allowed to join us on the 
dais and be recognized to participate in today's hearing. 
Hearing no objections, so ordered.
    Now I will recognize the gentlelady from Samoa to introduce 
our next witness.
    Mrs. Radewagen. Thank you, Mr. Chairman. I first want to 
thank you, Chairman Webster and Ranking Member Grijalva, for 
allowing me to participate in today's Water, Power and Oceans 
Subcommittee hearing.
    I would like to introduce one of our witnesses today, Mr. 
Brian Hallman, who serves as the Executive Director for the 
American Tunaboat Association.
    Mr. Hallman has a long and distinguished career in the 
management of tuna fisheries in the Atlantic and Pacific. Many 
of the vessels in his fleet operate out of my home district of 
American Samoa and are a major driving force to our local 
economy.
    These monuments have had a major impact on his fleet, and I 
look forward to hearing his views on the issue.
    Thank you for being here, Mr. Hallman. You have the Floor.

   STATEMENT OF BRIAN HALLMAN, EXECUTIVE DIRECTOR, AMERICAN 
          TUNABOAT ASSOCIATION, SAN DIEGO, CALIFORNIA

    Mr. Hallman. Thank you, Mrs. Radewagen and Mr. Chairman and 
members of the Committee. I appreciate the opportunity to 
testify today.
    My name is Brian Hallman, and I am the Executive Director 
of the American Tunaboat Association (ATA), which represents 
all of the large U.S. flag purse seine vessels fishing in the 
Pacific Ocean. And we fish there pursuant to three different 
treaties.
    We have one of the most significant tuna fleets operating 
in the Western Pacific and the largest distant water fishery 
anywhere in the world. American vessels catch tuna with a 
landed value of approximately half a billion dollars per year, 
and many vessels, as Mrs. Radewagen has said, land their catch 
in American Samoa, contributing significantly to the 
territory's economy. The figures for that, Mr. Chairman, are in 
my testimony. A number of other U.S. boats tranship their catch 
to canneries around the world, including in the United States.
    I am here today to discuss the impact on fishing at marine 
monument designations. Bluntly said, limiting fishing via 
marine monuments makes no sense whatsoever. It is actually 
harmful, and it is detrimental to maintaining sustainable 
fisheries.
    The main point to understand is that all U.S. fisheries are 
already managed by other legislative and legal means. For 
fisheries under U.S. jurisdiction, there is a system 
established by U.S. law. For fisheries in waters beyond U.S. 
jurisdiction, there are treaties setting forth the conservation 
of management procedures. And in both cases, the establishment 
of marine monuments completely pre-empts and usurps these long-
standing, legally binding, and effective processes.
    The second point, which I have already alluded to, is that 
the fishing prohibitions in these unilateral monument 
declarations are not based on established, accepted science. 
That is not to say that fishing area closures cannot be based 
on science, but again, there are established procedures. The 
existing systems are rigorous and well-established, involving 
some of the best fisheries scientists in the world. Why should 
these scientific processes be bypassed for closures not based 
on accepted science?
    Mr. Chairman, let me speak for a moment about the Pacific 
Remote Islands Marine National Monument expansion dictated by 
the previous administration in September of 2014.
    These closures around remote, uninhabited U.S. islands in 
the Pacific include traditional and productive U.S. fishing 
areas. And, incredibly, the initial announcement of the 
intended White House action was made with no advance 
consultation with U.S. fishing interests or with U.S. 
territories or states.
    ATA made the point that the U.S. fisheries in these waters 
are for highly migratory tunas, which only swim through these 
areas and are already being effectively conserved and managed 
via a legally-binding multilateral treaty. Tuna fishing by U.S. 
vessels in these island areas and beyond is sustainable and is 
heavily regulated.
    We also noted that these remote waters have essentially 
been unaffected over the years from operations by U.S. purse 
seine and longline fisheries. Our surface fishing gear does not 
touch corals or the ocean bottom, and the fishing has no 
negative impact on the ecosystems of these areas.
    And, finally, we commented that closing U.S. waters in the 
region undermines the continued viability of U.S. access 
agreements in the region. There must be a level playing field 
for American fishermen. The U.S. unilateral prohibition on 
fishing healthy stocks by its own fishermen, without a 
scientific recommendation, seems to be unique to our country. 
In my some 40 years of working in this field, I have never 
heard of any major fishing nation doing the same.
    For these reasons, Mr. Chairman, ATA strongly supports the 
call Chairman Bishop and Congresswoman Radewagen have made in 
their letter to the President for him to remove all fishing 
restrictions in all marine national monuments.
    Thank you, Mr. Chairman and members of the Committee, for 
the opportunity to address you today.
    [The prepared statement of Mr. Hallman follows:]
   Prepared Statement of Brian Hallman, Executive Director, American 
              Tunaboat Association, San Diego, California
    Chairman Lamborn, Ranking Member Huffman, and members of the 
Committee, thank you for the opportunity to testify. My name is Brian 
Hallman, and I am the Executive Director of the American Tunaboat 
Association (ATA). In my career in international management of 
fisheries, I have also held policy positions with the Inter-American 
Tropical Tuna Commission (IATTC), the National Oceanic and Atmospheric 
Administration, and the Department of State.
    The ATA represents all the large U.S. flag purse seine vessels 
fishing in the Pacific Ocean, where ATA members' vessels fish pursuant 
to three international Conventions. In the eastern Pacific, there is 
the Convention establishing the IATTC. In the west, where the bulk of 
the U.S. fleet has operated in recent years, there are both the Treaty 
on Fisheries between the United States and certain Pacific Island 
States (popularly known as the South Pacific Tuna Treaty), as well as 
the Convention establishing the Western and Central Pacific Fisheries 
Commission (WCPFC).
    The U.S. purse seine fleet consists of 40 vessels, making it one of 
the most significant fleets operating in the western Pacific Ocean and 
the largest U.S. distant water fishery anywhere on the globe. The 
largest tuna purse seine fishery in the world--for fish that typically 
ends up as a canned tuna product--takes place in this region in the 
western Pacific. Although somewhat variable, the U.S. purse seine fleet 
catches tuna with a landed value of approximately half a billion 
dollars a year.
    Around one-half of the U.S. flag purse seine tuna fleet lands its 
catch at Pago Pago, in the Territory of American Samoa, where the tuna 
industry accounts for approximately 80 percent of the private sector 
economy, and where the tuna processing sector is the largest private 
employer in the Territory. The purse seine vessels that utilize 
American Samoa as a home port contribute significantly to the economy 
of American Samoa through the purchase of fuel, oil, deck supplies/
other local supplies, maintenance/repairs, hotels, restaurants, staff 
payroll, etc. We estimate that this economic contribution is between 
$50-$60 million annually, which is directly to the benefit of American 
Samoa's economy.
    The other half of the U.S. flag purse seine fleet transships to 
canneries around the world, including in the United States. I further 
note that the United States is the country with the largest canned tuna 
market in the world.
    Mr. Chairman, the Committee has asked me here today to discuss the 
impact of marine monument designations under the Antiquities Act on 
fishing, and, in particular, the experience of the U.S. flag purse 
seine tuna fleet regarding marine monument designations. The 
fundamental purpose of marine monuments, as I understand it, is to 
preclude, or at least severely limit, human activity in the designated 
area. Perhaps that makes sense for certain activities such as drilling 
on the ocean floor or seabed mining, but limiting fishing via marine 
monuments makes no sense whatsoever.
    Actually, not only do marine monument fishing prohibitions make no 
sense, they are downright dangerous. Several anti-fishing groups have 
publicly stated their desire and intention to prohibit fishing in up to 
one-third of the ocean, regardless of whether the fish stocks involved 
are already being managed and conserved, and regardless of the best 
scientific advice. This kind of approach to ocean governance could be 
devastating to sustainable fisheries.
    Let me say at the outset that, while I am not a legal expert and 
prefer not to discuss the legal aspects of designating extensive marine 
monuments under the Antiquities Act, I note that such legality has been 
questioned.
    That aside, there are reasons of both principle and practicality 
why marine monuments affecting commercial fishing are problematic, 
which I shall address now, elaborating on an example of a marine 
monument established by the last administration which has a detrimental 
impact on the U.S. fishermen who I represent, and on the economy and 
prosperity of the Territory of American Samoa.
    The main reason why fishing activities involving U.S. fishermen 
should never be included in a marine monument designation is that all 
relevant fisheries are effectively conserved and managed by other 
legislative and legal means. For fisheries under U.S. jurisdiction, 
there is a congressionally mandated process established by the 
Magnuson-Stevens Fishery Conservation and Management Act. For fisheries 
in waters beyond U.S. jurisdiction, there are Treaties or Conventions, 
to which the United States is a Contracting Party, setting forth the 
conservation and management procedures and responsibilities that are 
promulgated in regulations that are assiduously monitored and enforced. 
I am not intimately familiar with the conservation and management 
processes for fisheries in waters under U.S. jurisdiction, such as the 
regional Council process, but I have had a close involvement with 
Treaty-based management of fisheries in waters outside of U.S. 
jurisdiction. In both cases, the establishment of marine monuments 
completely pre-empts and usurps these long-standing, legally binding, 
and effective processes.
    A second and related point relative to the establishment of marine 
monuments is that the prohibitions on fishing found in these unilateral 
declarations are not based on science. That is not to say that fishing 
area closures cannot be based on science. In fact, science-based area 
closures do exist and have at times proven to be effective fisheries 
management measures. But, again, there are established procedures for 
basing any such measures on meaningful scientific analyses. This is 
true for both fisheries in U.S. waters and for those involving U.S. 
fishermen in waters beyond U.S. jurisdiction. I could elaborate on 
those processes, Mr. Chairman, but suffice it to say here that the 
existing systems for the conservation and management of fisheries are 
rigorous and well established, involving some of the best fisheries 
scientists in the world. Why should these scientific processes be 
bypassed for closures not based on science, or even worse, junk 
science?
    Mr. Chairman, let me speak for a minute about the Pacific Remote 
Islands Marine National Monument expansion plan (PRIMNM) established by 
the previous administration in September of 2014. The initial 
announcement, on June 17, 2014, of the intended White House action was 
done, incredibly, with no advance consultation with U.S. fishing 
interests. These closures involved traditional and productive U.S. 
fishing areas around Johnston Atoll, Jarvis Island, Wake Island, 
Howland and Baker Islands, Palmyra Atoll, and Kingman Reef. The initial 
intention of the White House was to prohibit all commercial activity in 
these areas. The proposed action was modified somewhat following an 
uproar from U.S. fishing interests--including ATA--the American 
territories in the region, tuna science experts, and the Western 
Pacific Regional Fisheries Management Council (WPRFMC).
    These areas are traditional fishing grounds for U.S. flag tuna 
vessels operating mainly out of Pago Pago, American Samoa and Honolulu, 
Hawaii. From a practical point of view, the fishing closures dictated 
by the U.S. monument areas and U.S. EEZs in the central Pacific, along 
with like closures of fishing areas within the EEZ of Kiribati and 
areas on the high seas by U.S. regulations, have been estimated to cost 
the Territory of American Samoa upwards of $100 million annually as 
estimated by NOAA Fisheries.
    In arguing against this action, ATA made the point that the U.S. 
fisheries in these areas are for highly migratory tunas, which are 
already being effectively conserved and managed via a legally binding 
multilateral Treaty. Tuna fishing by U.S. vessels in these island areas 
is sustainable. These fisheries are some of the most regulated of any 
in the world, with catch restrictions, full reporting, electronic 
position monitoring, on-board observers, and strict regulations to 
protect non-tuna species and the environment.
    We made the additional points that these remote, pristine waters 
have essentially been unaffected over the years from operations by U.S. 
purse seine and longline fisheries. Our surface fishing gear does not 
touch corals or the ocean bottom, and the fishing has had no negative 
impact on the ecosystems of these areas. What our sustainable fishery 
does do is generate healthy food, jobs, businesses and revenue for U.S. 
interests.
    Finally, we commented that fishing access for U.S. purse seine 
vessels to the waters of Pacific island countries in the south Pacific 
is organized pursuant to a multilateral Treaty. To close U.S. waters in 
the same region without scientific justification undermines the 
continued viability of this Treaty, which provides access to 14 Pacific 
Island countries and a Pacific Island Territory (of New Zealand), and 
which has for almost 40 years now been considered by many to be the 
cornerstone of overall U.S. relations with all these Pacific Island 
states.
    Then there is the issue of basic biology--highly migratory species 
such as tuna cannot be conserved or effectively managed by marine 
protected areas, marine parks, or marine monuments--a simple scientific 
fact not disputed by reputable fisheries scientists. These species may 
travel thousands of miles through the waters of many nations and the 
high seas--that is why highly migratory fish stocks are managed 
throughout the world by U.N.-sanctioned multilateral conventions 
covering their extensive migratory routes, and including all fishing 
nations involved.
    Another point that should be made regarding the previous 
administration's efforts to establish marine monuments prohibiting 
fishing is the process and its total lack of transparency. As 
previously noted, the initial announcement of the PRIMNM was done with 
no consultation whatsoever with the affected fishing interests, 
although there apparently was close consultation with environmental 
non-governmental organizations. Afterwards, when the proposed action 
became public, there was minimal such consultation, and U.S. fishing 
interests had to push hard to be heard.
    Mr. Chairman, one of the tenets of the ATA's approach to 
international fisheries management crucial to the survival of the U.S. 
fleet is that there must be a level playing field for American 
fishermen on which to compete. The U.S. purse seine fleet is in fierce 
competition with fleets from China, Japan, Korea, the Philippines, and 
Taiwan, as well as with others. The United States' unilateral 
prohibition on fishing healthy stocks by its own fishermen--that is not 
based on any science--seems to be unique to the United States. In my 40 
years of working in this field, I have never heard of any major fishing 
nation doing the same, and, as alluded to above, for the U.S. 
Government to do so is a terrible example and precedent for other 
countries to follow.
    Mr. Chairman, for these many reasons, ATA strongly supports the 
call Chairman Bishop and Congresswoman Amata Radewagen have made in 
their letter to the President for him to remove all fishing 
restrictions in all Marine National Monuments, thus restoring the 
conservation and management processes for highly migratory fish stocks 
established by U.S. supported multilateral Treaties, and the 
prerogatives of the Councils and the Secretary of Commerce to 
effectively conserve and manage fisheries in U.S. waters. For the 
longer term, to further ensure that the existing fisheries management 
processes are respected, it would seem that legislation to restrain 
future unilateral executive branch actions prohibiting fishing in these 
types of situations would be appropriate.
    Thank you, Mr. Chairman and members of the Committee, for the 
opportunity to address you today on this important matter.

                                 ______
                                 

   Questions Submitted for the Record by Rep. Grijalva to Mr. Brian 
       Hallman, Executive Director, American Tunaboat Association
    Question 1. You answered that only half of the purse seine tuna 
fleet vessels are authorized under Coast Guard endorsement to fish in 
the U.S. EEZ. However, records show that only 8 of the 35 U.S. flagged 
vessels in the fleet have Coast Guard fishery endorsement (information 
received since the time of the hearing). Can you confirm the total 
number of vessels that are authorized to fish in the U.S. EEZ? Can you 
also tell us what percentage of the tuna catch from these vessels came 
out of the waters that were closed by monument expansions?

    Answer. According to the American Tunaboat Association's records, 
11 U.S. flag purse seine vessels are authorized to fish in the U.S. 
EEZ. Historically, these vessels have mostly operated out of American 
Samoa. I do not know what percentage of the tuna catch from these 
vessels came out of the waters that were closed by monument expansions.

    Question 2. You say that, ``From a practical point of view, the 
fishing closures dictated by the U.S. monument areas and U.S. EEZ's in 
the central Pacific, along with the like closures of fishing areas 
within the EEZ of Kiribati and areas on the high seas by U.S. 
regulations have been estimated to cost the Territory of American Samoa 
upwards of $100 million dollars annually as estimated by NOAA 
Fisheries.'' Can you please provide documentation for this estimate, 
including how much of the $100 million in `damages' is directly due to 
the U.S. monument closures alone?

    Answer. Attached is a copy of the NOAA report from where I obtained 
this estimate. The report does not say, and I do not know, how much of 
the damages are directly due to the U.S. monument closures alone.

                                 *****

[The following document was submitted as an attachment to Mr. Hallman's 
responses. This document is part of the hearing record and is being 
retained in the Committee's official files:]

    --``Analyzing the economic impacts of the 2015 ELAPS closure,'' an 
            Internal Report by Valerie Chan and Dale Squires, NOAA, 
            August 2016

                                 ______
                                 

    Mr. Webster. Thank you very much.
    I now recognize Mr. Graves to introduce our last witness. 
You are recognized.
    Mr. Graves. Thank you, Mr. Chairman.
    The last witness is Mr. Chett Chiasson, who is the 
Executive Director of the Greater Lafourche Port Commission, 
otherwise known as Port Fourchon. He also runs the South 
Lafourche Airport, as well.
    Chett is originally from south Louisiana, has a bachelor's 
and a master's from LSU.
    Raise your hand if you don't think LSU Tigers are the best 
team in the Nation. Thank you.
    Chett is a great advocate and partner that has done a 
fantastic job running this port facility, which services 
approximately three-fourths of the Gulf of Mexico in terms of 
offshore energy production. He also has been a great partner 
with us on many of our coastal restoration projects in south 
Louisiana, and also incredibly dynamic in the oil spill. He 
took his port facility and ended up being the major launch 
facility for all of the rescue and efforts to cap the well in 
2010 from the Deepwater-Horizon oil spill.
    Last, Mr. Chiasson is a fisher. And I want to distinguish 
that from a catcher. He enjoys going out in the Gulf of Mexico 
and enjoying the bounty of the Gulf. But certainly an expert 
witness in regard to oil and gas production, particularly 
offshore.
    Mr. Webster. Thank you very much.

   STATEMENT OF CHETT CHIASSON, EXECUTIVE DIRECTOR, GREATER 
         LAFOURCHE PORT COMMISSION, GALLIANO, LOUISIANA

    Mr. Chiasson. Good morning, Mr. Chairman and members of the 
Committee. My name is Chett Chiasson. In addition to serving as 
Executive Director of Port Fourchon, I also serve on the 
Louisiana Governor's Advisory Commission for Coastal 
Activities, the Louisiana Coastal Protection and Restoration 
Authority Finance Corporation, and the Executive Board of 
Restore or Retreat, a regional non-profit coastal restoration 
advocacy group.
    With this testimony, I hope to impress upon you several 
points: (1) the importance of robust oil and gas research and 
development activities in the Gulf of Mexico that contributes 
to the Gulf economy and our national economy and also funds 
vital coastal restoration efforts through a variety of means, 
such as the Gulf of Mexico Energy Security Act, or GOMESA, 
passed by Congress in 2006; (2) the importance of commercial 
and recreational fishing activities to the Gulf and national 
economies; and (3) illustrating a successful history in 
Louisiana and the Gulf region of balancing economic activities 
such as oil and gas development and commercial fishing with 
environmental protection and restoration. Indeed, from a 
Louisiana standpoint, the Gulf of Mexico and its adjacent 
wetlands is the thread that sews together our heritage, our 
livelihood, our recreation, and our homes.
    Port Fourchon is a political subdivision of the state of 
Louisiana and the only Louisiana port directly on the Gulf. 
Port Fourchon does not itself handle any bulk and gas cargo, 
per se. Rather, we are an intermodal offshore services and 
supply port. In total, Port Fourchon plays a key role in 
servicing nearly 20 percent of the Nation's oil supply. 
According to several economic impact studies, our port supports 
over 10,800 direct jobs across the state of Louisiana. These 
are very good-paying jobs.
    Our region has traditionally maintained one of the lowest 
unemployment rates in the country, at one point hitting as low 
as 3.7 percent. However, during the current downturn in the 
energy industry, our region alone has lost over 12,000 direct 
and indirect jobs, which has many in our community turning to 
commercial fishing and other activities. Actions by the Federal 
Government to lock away productive ports of the Gulf would take 
even more opportunities away from already challenged sectors of 
our economy.
    I would like to remind the Committee that, through the 
contribution of Louisiana's share of offshore energy revenue 
produced in the Gulf of Mexico, the continued ability for 
offshore energy activities in the Gulf would directly fund 
coastal restoration in Louisiana.
    GOMESA is currently accruing offshore revenues to be 
distributed to the energy-producing Gulf states and Louisiana 
and will form the most significant and sustainable revenue 
dedicated to funding the state's 50-year, $50 billion Coastal 
Master Plan. Thus, Federal actions that restrict energy 
activities would also limit large-scale environmental 
restoration in areas which need it most.
    The focus of today's hearing is on the Marine Sanctuary 
Program. Several sanctuaries exist today in the Gulf of Mexico, 
and there is a current proposal from NOAA that would expand the 
boundaries of one existing sanctuary, Flower Garden Banks 
National Marine Sanctuary, located off the coast of Louisiana 
and Texas. While I would view all areas of the Gulf as critical 
and deserving of our stewardship, Flower Garden Banks was one 
area in the Gulf selected in 1992 and then expanded in 1996 for 
designation as a marine sanctuary.
    But the key to understanding the complexity of balancing 
environmental protection and maintaining economic prosperity 
for the country is that the same reefs, bottom topographies, 
and other features that provide habitat for fish and other 
resources are also the very areas in which commercial and 
recreational fishing is most productive, and the geological 
formations associated with these areas often hold fossil fuels 
buried below the seabed. Therefore, government policy needs to 
balance these dynamics, which is not always an easy task.
    In announcing its plan to expand the current sanctuary, 
NOAA indicated that the proposed expansion is required to 
provide protection that could most effectively be addressed 
through the comprehensive suite of habitat conservation and 
management actions made possible by expanding the sanctuary.
    While national marine sanctuary designation allows for some 
uses, various activities are prohibited, including many means 
of commercial fishing. Furthermore, when the Department of the 
Interior announced last week upcoming lease sales for oil and 
gas activities, the areas that encompassed Flower Garden Banks 
were specifically excluded, given their marine sanctuary 
designation.
    Whether or not the current sanctuary requires further 
expansion, it is beyond my professional and academic 
capabilities to render an opinion. A key element for the 
government, in collaboration with all interested communities, 
is to effectively and fairly utilize, in NOAA's words, a 
comprehensive suite of habitat conservation management actions 
so as to achieve an appropriate balance of goals.
    With respect to doing so, the government must also consider 
the massive and ongoing natural resources damage assessment and 
planning which has followed the tragic Deepwater-Horizon oil 
spill incident. While this event had disastrous impacts on 
human life, the environment, and economy of the Gulf, it has 
resulted in the largest coordinated environmental restoration 
and conservation planning effort in our Nation's history.
    Thus, there are conservation activities much broader and 
effectively underway which will greater benefit the Gulf than 
the proposed expansion of this sanctuary, with potentially 
fewer negative effects to industries and people who can ill-
afford economic restrictions on their livelihoods.
    Thank you, Mr. Chairman, for allowing me to testify today.
    [The prepared statement of Mr. Chiasson follows:]
   Prepared Statement of Chett Chiasson, Executive Director, Greater 
             Lafourche Port Commission, Galliano, Louisiana
    Good morning Mr. Chairman and members of the Committee. I 
appreciate the opportunity to appear before you today. My name is Chett 
Chiasson, and I am the Executive Director of the Greater Lafourche Port 
Commission, otherwise known as Port Fourchon. In addition to service as 
the Executive Director of Port Fourchon, I also serve on the Louisiana 
Governor's Advisory Commission for Coastal Activities, the Louisiana 
Coastal Protection and Restoration Authority Finance Corporation, and 
the Executive Board of Restore or Retreat, a regional non-profit 
coastal restoration advocacy group.
    With this testimony, I hope to impress upon you several points: (1) 
the importance of robust oil and gas research and development 
activities in the Gulf of Mexico that contributes to the Gulf economy 
and our national economy, and also funds vital coastal restoration 
efforts, through a variety of means, such as the Gulf of Mexico Energy 
Security Act (GOMESA), passed by Congress in 2006; (2) the importance 
of commercial and recreational fishing activities to the Gulf and 
national economies; and (3) illustrating a successful history in 
Louisiana and the Gulf region of balancing economic activities such as 
oil and gas development and commercial fishing, with environmental 
protection and restoration. Indeed, from a Louisiana standpoint, the 
Gulf of Mexico and its adjacent wetlands is the thread that sews 
together our heritage, our livelihood, our recreation, and our homes, 
and you would be hard-pressed to find another group of Americans whose 
culture, character and fortunes are tied so closely to their natural 
environment as those of us who call South Louisiana home.
    The focus of today's hearing is on the Marine Sanctuary Program. 
Several sanctuaries exist today in the Gulf of Mexico, and there is a 
current proposal from NOAA that would expand the boundaries of one 
existing Sanctuary, Flower Garden Banks National Marine Sanctuary, 
located off the coasts of Louisiana and Texas. While I would view all 
areas of the Gulf of Mexico as ``critical'' and deserving of our 
stewardship, Flower Garden Banks was one area in the Gulf selected in 
1992, and then expanded in 1996, for designation as a Marine Sanctuary. 
But the key to understanding the complexity of balancing environmental 
protection with maintaining economic prosperity for the country is that 
the same reefs, bottom topographies and other aesthetic features that 
provide habitat for fish and other biological resources are also the 
very areas in which commercial and recreational fishing is most 
productive, and the geologic formations associated with these areas 
often hold fossil fuel resources buried below the seabed. And thus, at 
all times, government policy at the Federal, state and local levels 
need to balance these dynamics, which admittedly and for good reason is 
not always an easy task.
    I would be remiss in my duties as both the Executive Director of 
the Nation's premiere energy services port and as a member of state and 
non-profit coastal restoration entities if I did not remind the 
Committee that through the contribution of Louisiana's share of 
offshore energy revenue produced in the Gulf of Mexico, the continued 
ability for oil and gas exploration and production in the Gulf will be 
directly funding coastal environmental restoration in Louisiana. GOMESA 
is currently accruing offshore revenues to be distributed to the 
energy-producing Gulf states, and in Louisiana, will form the most 
significant and sustainable stream of revenue dedicated to funding the 
state's ambitious 50-year, $50 billion Coastal Master Plan. Thus, 
Federal actions which would restrict energy exploration and production 
would also limit large scale environmental restoration in areas which 
need it most.
    By way of background, The Greater Lafourche Port Commission, a 
political subdivision of the state of Louisiana, facilitates the 
economic growth of the communities in which it operates by maximizing 
the flow of trade and commerce. We do this to grow our economy and 
preserve our environment and heritage. The Port Commission operates 
both the South Lafourche Leonard Miller Jr Airport and Port Fourchon, 
which both service the bulk of America's offshore energy industry by 
air, land and sea.
    Port Fourchon is located on the Gulf of Mexico near the mouth of 
Bayou Lafourche and is the only Louisiana port directly on the Gulf of 
Mexico. Although 675 million barrels of domestically produced and 
imported crude oil per year are transported via pipelines through the 
Port, Port Fourchon does not itself handle any bulk oil and gas per se. 
Rather, we are an intermodal offshore services and supply port. More 
than 250 companies utilize Port Fourchon in servicing offshore rigs in 
the Gulf of Mexico, carrying equipment, supplies and personnel to 
offshore locations. In terms of service, Port Fourchon's tenants 
provide services to more than 90 percent of all deepwater rigs in the 
Gulf of Mexico, and roughly 45 percent of all shallow water rigs in the 
Gulf. Eighty percent of all Gulf oil now comes from deepwater Gulf of 
Mexico operations. In total, Port Fourchon plays a key role in 
providing nearly 20 percent of the Nation's oil supply--or one in every 
five barrels of oil in the country.
    In a recent study conducted by Dr. Loren C. Scott, former Chair of 
the LSU Economics Department, of the economic impact to the Nation of 
Port Fourchon, Dr. Scott finds that Port Fourchon accounts for nearly 
$4 billion in direct economic activity each year, which includes over 
$650 million in household earnings. A copy of this report is attached 
hereto for the record. The Port commissioned Dr. Scott to conduct this 
economic study as a means of documenting the importance of Port 
Fourchon to the Nation, in order to justify Federal participation in 
infrastructure development at the Port, such as modernizing Louisiana 
Highway 1, which connects the Port to the rest of the world, or for 
seaport security funding, or for additional hurricane protection.
    A 2015 study by the Rand Corporation and Louisiana State 
University, Economic Evaluation of Coastal Land Loss in Louisiana,\1\ 
placed the value of imports and exports coming and going through 
coastal Louisiana at over $300 billion annually, with petroleum and 
chemical products forming a large portion of that activity. A copy of 
this report is attached hereto for the record.
---------------------------------------------------------------------------
    \1\ http://coastal.la.gov/wp-content/uploads/2015/12/LSU-
Rand_Report_on_Economics_of_Land_ Loss-2.pdf.
---------------------------------------------------------------------------
    According to the Loren Scott economic impact study referenced 
above, a 3-week shut down of LA1/Port Fourchon would cause a loss of 
$11.2 billion in sales to U.S. GDP, plus an additional $3.2 billion in 
lost household earnings because 65,502 jobs would be lost nationally--
for just a 3-week shutdown. While each of these reports was intended 
for different purposes, I share this information with the Committee to 
illustrate the need for continued and sustained progress in developing 
all of our offshore energy resources, both conventional and non-
conventional. Port Fourchon is the epicenter of offshore oil and gas 
activities, and the companies in and around Fourchon, and their 
technologies and innovations developed as a result of these activities, 
will not only continue to sustain future offshore domestic oil and gas 
activities, but will foster growth in our budding offshore renewable 
energy industry as well.
    For Port Fourchon to continue to grow and have a successful future 
creating jobs throughout the economy and facilitating development for 
our community, continued Gulf of Mexico energy exploration and 
development is critically important. Robust levels of exploration and 
development have the ability to energize oil and gas service companies, 
their suppliers and their suppliers' suppliers throughout the country, 
who are planning for future development. It facilitates critically 
needed investment by entities that service these offshore activities, 
which has a positive ripple effect throughout the national economy.
    According to the economic impact study to which I alluded earlier, 
Port Fourchon supports over 10,800 direct jobs across the state of 
Louisiana. These are good paying jobs, in which someone with a high 
school diploma can start out making $50,000 per year. If someone wants 
to work on an offshore supply vessel or tugboat company, they can start 
out as a deckhand and work their way up to Captain within 5 years, 
earning a six-figure income. The Houma-Thibodaux MSA has traditionally 
maintained one of the lowest unemployment rates in the country, at one 
point hitting as low as about 3.7 percent, which was well below the 
national average at the time. However, during the current downturn in 
the energy industry, our region alone has lost over 12,000 jobs, which 
has many in our community trying to turn to subsistence fishing, 
hunting and trapping at a time when those commercial fisheries catches 
are also declining. Actions by the Federal Government to lock away 
productive parts of the Gulf would take even more opportunities away 
from already challenged sectors of our economy, and would kick these 
people when they are down.
    The importance of our commercial fisheries industry is nationally 
significant, producing approximately $300 million in revenue each year, 
and Louisiana accounts for one-third of all fisheries landings in the 
contiguous United States. The forthcoming ``Comprehensive Conservation 
and Management Plan (CCMP)'' from the Barataria-Terrebonne National 
Estuary Program includes the following economic update regarding our 
commercial fishery along the Gulf Coast: ``Louisiana's seafood 
harvesting sector has been in decline for more than two decades, due 
primarily to price stagnation caused by an influx of imported seafood 
(Asche et al. 2012; Josupeit 2004; Bene et al. 2000). This competitive 
pressure has been compounded by rising input costs and a succession of 
natural and man-made disasters. Together, such factors have led to a 56 
percent decline in commercial fisherman license sales in the last 25 
years, with more than half of this reduction occurring in the past 
decade alone (LDWF 2016). The number of seafood dealers and processors 
in Louisiana has also been in decline, as the globalization of 
fisheries commodity markets has led to downsizing, consolidation, and 
closure of more than half of the firms in this sector.''
    The current Flower Garden Banks National Marine Sanctuary is 
located in the northwestern Gulf of Mexico, 70 to 115 miles off the 
coasts of Texas and Louisiana. The Sanctuary currently includes three 
separate undersea features: East Flower Garden Bank; West Flower Garden 
Bank; and Stetson Bank. The banks range in depth from 55 feet to nearly 
500 feet, and provide a wide range of habitat conditions that support 
several distinct biological communities, including the northernmost 
coral reefs in the continental United States.
    East and West Flower Garden Banks were designated a national marine 
sanctuary in 1992 for purposes of protecting and managing the 
conservation, ecological, recreational, research, education, historic 
and aesthetic resources and qualities of these areas. The Stetson Bank 
area was added to the Sanctuary by Congress in 1996.
    While National Marine Sanctuary designation does allow for some 
uses--as long as they are compatible with primary objective of 
protecting resources--anchoring is prohibited. Also prohibited are 
shrimping, longlining, and spearfishing. Recreational and commercial 
hook and line fishing are allowable, but the economic opportunities 
presented by those limited uses nowhere near offset the economic 
opportunities displaced by the near sevenfold expansion of the area 
locked away by the proposed action. Of timely importance, when the 
Department of the Interior announced just last week upcoming lease 
sales for 2017, the areas that encompass East and West Flower Garden 
Banks were specifically excluded, given their marine sanctuary 
designation.
    In 2012, NOAA updated and revised the 1991 Flower Garden Banks 
Management Plan to address recent scientific discoveries, advancements 
in managing marine resources, and new resource management issues. As a 
result of this review, in 2015, NOAA recommended expanding the 
sanctuary to provide similar protections to additional banks in the 
north central Gulf of Mexico. After a public scoping process, NOAA 
proposed the expansion of the existing boundaries from 56 square miles 
to an area that encompasses 383 square miles of waters in the 
northwestern Gulf of Mexico. This alternative would add 15 additional 
banks ranging from 70 to 120 miles offshore. In announcing its plan, 
NOAA indicated that the proposed sanctuary expansion is required to 
provide protection to marine resources ``that can most effectively be 
addressed through NOAA's evaluation and implementation of the 
comprehensive suite of habitat conservation and management actions made 
possible by'' expanding the Flower Garden Banks Sanctuary. It is worth 
noting that the advisory committee actually recommended a smaller 
expansion of the FGBNMS, Alternative 2, which would have encompassed 
100 fewer square miles and 3 fewer bank areas than the Alternative 
which NOAA has put forward.
    Whether or not the current Sanctuary requires further expansion, or 
other areas within the Gulf of Mexico should be under consideration for 
designation under the Marine Sanctuary Program is, frankly, beyond my 
professional and academic capabilities to render an educated opinion. 
However, in my occupation, on a daily basis, I am confronted with the 
need to continually balance economic development with environmental 
protection, and to live within a regime of Federal, state and local 
laws and regulations that attempt to achieve that balance. And, at 
times like today, I have the ability to provide my thoughts on matters 
of pubic policy that impacts that balance of economic development and 
environmental protection. So to me, a key element is for the 
government, in collaboration with interested communities across 
industry, environmental and recreational sectors, to effectively and 
fairly utilize in NOAA's words ``a comprehensive suite of habitat 
conservation and management actions'' so as to achieve an appropriate 
balance of goals.
    With respect to developing ``a comprehensive suite of habitat 
conservation and management actions,'' we would be remiss not to 
consider the massive and ongoing Natural Resources Damage Assessment 
and associated resource condition, management and conservation research 
and planning which has followed the tragic Deepwater Horizon oil spill 
incident. While the Deepwater Horizon spill event had tragic and 
disastrous impacts on the economy and environment of the Gulf of 
Mexico, it has resulted in the largest coordinated environmental 
assessment and comprehensive restoration and conservation planning 
effort in our Nation's history. Over $7 billion is being dedicated 
through the NRDA process to actively identify and address the health of 
the Gulf. The Final Programmatic Damage Assessment and Restoration Plan 
and Final Programmatic Environmental Impact Statement guiding the 
application of these billions of dollars of active conservation and 
restoration include the very deep ocean and ocean floor habitat areas 
that the proposed expansion of the FGBNMS would seek to lock away. Thus 
it seems to me that there are conservation activities much broader-
based and effective underway which will have wider-ranging benefits for 
these deep ocean habitats than the proposed expansion of the Flower 
Garden Banks, with potentially fewer negative effects to industries and 
people who can ill afford economic restrictions on their livelihoods.
    In conclusion, Port Fourchon should be seen as an example of what 
could happen in areas all along our coastlines, if these areas would be 
available for conventional and renewable energy development, balanced 
with appropriate environmental protection and conservation goals. 
Billions of dollars of investment throughout the country, low 
unemployment rates, high paying jobs, more revenue for our country, and 
making great strides toward energy independence . . . What's not to 
like about that!
    Again Mr. Chairman and members of the Committee, I appreciate the 
opportunity to appear before you today, and I would be happy to answer 
any questions that the Committee may have.

                                 *****

The following documents were submitted as supplements to Mr. Chiasson's 
testimony. These documents are part of the hearing record and are being 
retained in the Committee's official files:

    --``Economic Impacts of Port Fourchon on the National and Regional 
            Economies,'' a Report by Dr. Loren C. Scott, April 2008

    --``Economic Evaluation of Coastal Land Loss in Louisiana,'' a 
            Report by the Louisiana State University, Economics & 
            Policy Research Group, December 2015

                                 ______
                                 

    Mr. Webster. Thank you so much for appearing.
    Now, before we go into questions, I want to ask for 
unanimous consent that Mr. Lowenthal be allowed to sit at the 
dais and participate in today's hearing. Are there objections?
    Show that it was adopted without objection.
    We will at this point begin our questioning. I am going to 
defer to the gentleman from Alaska, Mr. Young, for 5 minutes.
    You are recognized.
    Mr. Young. Thank you, Mr. Chairman. And thanks for having 
these hearings.
    It is a sad thing, in a way, for a lot of people that I am 
still around, because I remember this battle about tuna and the 
battle that tried to put the tuna business out of business 
many, many years ago and very nearly came to it.
    I will tell you, Mr. Chairman, I do not believe the 
Antiquities Act should ever have been applied to oceans. That 
was never the intent of that. If you look at the Act itself, it 
was intended for on-land places of significance, to protect it, 
not oceans of massive square miles.
    And it is ironic that even President Bush and President 
Obama picked areas that had intensive other uses than a 
monument area--fishing, potential oil. We heard from the 
gentleman from Port Fourchon.
    This is an attempt, very frankly, to control again the 
seabeds, without scientific information, without consultation 
with people directly affected, to my knowledge. And I can say 
no one talked to any of the states, no one talked to the people 
that were actually in that area. It was done by the interest 
groups that said no more of anything unless it suits our goal, 
and the goal is to have nothing--no oil exploration, no fishing 
commercially, and little fishing sport-wise unless it is 
approved by a Secretary.
    That is our role. I have introduced, Mr. Chairman, my bill 
called the MAST Act, the Marine Access and State Transparency 
Act. It will take out the ability from the President. Nothing 
can be done without the OK of the Congress.
    We have to stop transferring that power around. To my 
colleagues, we have lost our role of leading this Nation and 
allowed the executive branch to do so, and it affects a lot of 
us sitting at this table.
    Now, we hear from people, ``Oh, this is a way to save the 
fish.'' To my knowledge, very little science or cooperation 
from anybody else involved, one-sided only.
    Having said that, Mr. Hallman, what financial losses--and I 
hate to ask this, because everybody says, oh, it is all about 
money. What financial losses would your industry suffer under 
these monument withdrawals?
    Mr. Hallman. Well, thank you, Mr. Young, for that question.
    The monument areas where the U.S. vessels fish are the so-
called Remote Pacific Island areas, and the catch there is 
quite variable, so it is hard to put a precise monetary figure. 
But all of the boats that fish in those areas operate out of 
American Samoa, where the boats contribute $50 million to $60 
million to the economy of American Samoa.
    Mr. Young. Just American Samoa?
    Mr. Hallman. Yes, sir.
    Mr. Young. So, it is a terrible financial knock if these go 
in place.
    Was there any consultation by the Administration about 
these withdrawals?
    Mr. Hallman. No, sir, not at all. I woke up one morning and 
found out that this was already announced by the White House. 
And then there was an uproar for a few months and some 
opportunity to intervene.
    Mr. Young. That is my complaint about our government. It is 
supposed to be for the people, by the people, with the people, 
not by an executive branch making a decision without 
consultation.
    Would you support legislation, such as my legislation, that 
would prevent marine designations and protection at 100 
nautical miles or 200 nautical miles, the entire EEZ? The 
question is, do you want Congress to do it or do you want 
administrations to do it?
    Mr. Hallman. Oh, absolutely, I think it should be the 
Congress that does this, Mr. Young.
    Mr. Young. OK.
    And last, do you believe the overall intent of these 
designations was to shut down your industry and fishing 
altogether to turn our oceans into limited aquariums?
    Mr. Hallman. Well, to some extent, you could project that 
idea out, since there are ideas from activists to close 30 or 
40 percent of the ocean to fishing, not based on science 
recommendations.
    Mr. Young. I am always interested that most of these 
recommendations come from universities that really have no 
stake in this, that really have no loss of revenues. And I 
think we ought to look at those finances, as far as where this 
money comes from, to make a recommendation without a 
consultation with the people. It is about the people.
    Thank you.
    Mr. Hallman. Thank you, sir.
    Mr. Webster. I now recognize the Acting Ranking Member, Mr. 
Grijalva, for 5 minutes.
    Mr. Grijalva. Thank you, Mr. Chairman. I want to defer the 
first set of questions to Mr. Sablan.
    Mr. Sablan. Thank you.
    Thank you very much, Mr. Chairman, for holding today's 
hearing. Welcome to all the witnesses. We know the weather, and 
we are sorry that we are missing the Mayor today.
    But in my district, in the Northern Marianas, many were 
excited when in January of 2009, it was at 11 o'clock in the 
morning, when President Bush used his powers under the 
Antiquities Act to declare the Marianas Trench a national 
monument. My governor had his picture taken hugging the 
President with one of the biggest smiles on his face.
    And we continue to be hopeful that the monument designation 
will bring cultural and economic benefits to our islands. This 
is why I have been working closely with my governor, my local 
legislators, key stakeholders, and activists to have the 
Marianas Trench National Monument declared a national marine 
sanctuary.
    So today, I am pleased to announce that the National 
Oceanic and Atmospheric Administration has placed the monument 
on its sanctuary inventory list. This is the first step in the 
process, and hopefully NOAA will soon commence the full public 
participatory process required to determine sanctuary 
determination under the National Marine Sanctuary Act. Our 
efforts are an example of a community listening to each other 
and working together for the greater good.
    The law is clear that the designation of marine monuments 
is a completely appropriate use of the Antiquities Act. And the 
science is clear that protecting key species of marine 
ecosystems from more extractive industries make our fisheries 
healthier and more productive.
    Further, each marine monument designation has been preceded 
by a stakeholder process that included the fishing industry and 
led to changes in the final designation based on fishermen's 
concerns. Data show that very little of the industry's catches 
were coming from the areas that are now monuments.
    Indeed, the Hawaii longline fleet, a critic of the 
monuments, lands only about 5 percent of its fish from those 
waters and still meets its quotas by fishing elsewhere. Last 
year, the fleet reached the limits of its allowable catch of 
bigeye tuna by July.
    We should be embracing marine monuments rather than 
opposing them. And we should not allow Regional Fishery 
Management Councils, including the Western Pacific Council, to 
have veto power over fishing rules in monuments and sanctuaries 
designed to conserve all marine species and habitats, not just 
fish.
    Westpac, in particular, has fought against every major 
marine conservation initiative in recent memory, including 
legislation to end the gruesome practice of shark finning and 
regulations designed to protect threatened and endangered 
species of sea turtles, marine mammals, and seabirds.
    The executive director of Westpac, a Federal employee, has 
gone so far as to lead a petition to remove endangered species 
protections from the green sea turtle and, more recently, has 
attempted to recruit other council members and staff from 
around the country to join her in lobbying the Trump 
administration to abolish marine monuments.
    These activities are inappropriate at the very least and 
show that Westpac supports the fishing industry at the expense 
of marine conservation that benefits all Americans. So, instead 
of blaming monuments for problems that do not exist, Westpac 
should focus on addressing the serious allegations of labor 
abuses and human trafficking aboard Hawaii-based longliners and 
rebooting the numerous reef fish stocks that NOAA recently 
showed are overfished.
    I don't have very much time, Mr. Hallman, but could I 
please get a yes-or-no answer from you. I have a couple of 
questions about the purse seine tuna fishery and the Pacific 
Remote Islands Marine National Monument. So, just a yes-or-no 
answer, please.
    You claim that the entire fleet of 38 boats is negatively 
impacted, but isn't it true that only a handful of these 
vessels have the proper Coast Guard endorsements to fish in the 
U.S. EEZ?
    Yes or no? I really don't have too much time, sir.
    Mr. Hallman. Yes. Only half the boats are allowed to fish 
in the EEZ.
    Mr. Sablan. Thank you.
    Data submitted to NOAA from logbooks aboard U.S. tuna purse 
seine vessels show that only a small fraction of their catch 
was coming from the areas that now comprise the Pacific Remote 
Islands Marine National Monument.
    Do you believe that vessels you represent are submitting 
false data to fisheries regulators?
    Mr. Hallman. Yes, sir.
    Mr. Sablan. Thank you, Mr. Hallman. I appreciate your 
answers.
    Mr. Webster. The Chair recognizes----
    Mr. Sablan. Mr. Chairman, if I may ask unanimous consent to 
submit records--this for the record.
    Mr. Webster. Without objection.

    [The information follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Sablan. Thank you, sir. Thank you, Mr. Chairman.
    Mr. Webster. The Chair recognizes the gentlelady, Mrs. 
Radewagen.
    Mrs. Radewagen. Thank you, Mr. Chairman.
    The economy of American Samoa depends on U.S. fishing more 
than any other state or territory. In fact, over 80 percent of 
our local revenue is generated by our local tuna cannery. The 
impact that these monument designations have had on American 
Samoa cannot be overstated.
    This may be a silly question, and it is something that I 
and all of my constituents are aware of, but I want it for the 
record, Mr. Hallman. How important is the fleet to the economic 
well-being of American Samoa?
    Mr. Hallman. Yes, thank you, Congresswoman Radewagen. And I 
know you know the answer to that.
    First, let me just take a few seconds to thank you very 
much for your and Chairman Bishop's efforts at the end of last 
year in getting the legislation passed to strengthen the WCPFC, 
particularly with respect to high seas fishing. This is going 
to be helpful, I believe, very helpful to the U.S. tuna fleets.
    But to answer your question, ma'am, about half of the U.S. 
fleet lands its fish in American Samoa. About 80 percent of the 
private-sector economy in American Samoa is dependent on the 
tuna industry in one way or another.
    I mentioned to Mr. Young that $50 million is what the 
expenditure of the boats is, but the canneries there is a whole 
different matter, which contributes significantly to the 
economy of American Samoa. Those tuna canneries are the largest 
private employer on American Samoa.
    And I do not represent the canneries, but for the fleet, 
and just to repeat, our expenditures, the boats' expenditures, 
in American Samoa for fuel, supplies, et cetera, is about $50 
million, $60 million a year. So, it is quite significant.
    Mrs. Radewagen. PRIMNM, or the Pacific Remote Islands 
Marine National Monument, established in 2014, has a 
significant impact on your fleet and on American Samoa.
    Can you tell me about the process that went into 
establishing that? Was it transparent? Were you involved?
    Mr. Hallman. Thank you for that question, because I think 
it is a very important one.
    There was no transparency. None. As I told Mr. Young, we 
woke up one morning and found out this was already announced 
right at the same time there was an ocean conference being held 
at the State Department by Secretary Kerry--this was all a big 
announcement. I was a participant in that conference, by the 
way, and was surprised.
    I am not sure everyone in it was surprised, because it was 
90 percent of environmental activists in there. But there were 
a few fishing representatives, and we did not know anything 
about it. So, there was no consultation.
    After that, we, I hate to use the word, almost forced our 
way into the dialogue and did have a meeting at CEQ where we 
expressed our concerns. And we did participate in a public 
forum in Honolulu, but it was not a good process for such an 
important action, ma'am.
    Mrs. Radewagen. And, last, I understand that the fishery in 
these areas is for highly migratory fish stocks. What is the 
relationship between these stocks and the Remote Island Area?
    Mr. Hallman. Well, there really isn't a relationship. The 
highly migratory tuna stocks, which our fleet catches and are 
landed in Samoa--mostly skipjack tuna. And these stocks, they 
travel thousands of miles. They just swim across these monument 
areas.
    And the Law of the Sea has a special chapter to deal with 
highly migratory species, where it prescribes that they are 
managed and conserved by international mechanisms. There is a 
treaty, there are legally binding treaties. The best tuna 
scientists, population dynamicists in the world look at these 
stocks and give recommendations every year, and the countries 
all decide what to do.
    So, this pre-emption of that process is something, 
honestly, I don't understand, because it has no positive 
benefit for the highly migratory fish stocks whatsoever.
    Mrs. Radewagen. Thank you, Mr. Chairman. I yield back.
    Mr. Webster. The Chair recognizes Mr. Grijalva for 5 
minutes.
    Mr. Grijalva. Thank you, sir. I appreciate it.
    Mr. Hallman, you claim in the testimony that the Pacific 
Remote Islands Marine National Monument is the reason for one 
of the two tuna canneries closing on American Samoa. But 
industry reports and the plant owner's own assessment cite the 
fishing days lost through the South Pacific Tuna Treaty and 
larger economic factors, not the monument, as the reasons for 
closing the cannery.
    In essence, I think the company admitted that it was 
closing the plant because it was cheaper for them to process 
tuna in foreign countries than in American Samoa, despite the 
fact that the workers there were being paid less than minimum 
wage, 80 percent were foreign workers, and they were avoiding 
very significant import duties.
    Do you disagree with this assessment and these widely 
reported facts, including the company's own assessment?
    Mr. Hallman. Well, I don't totally disagree with that, sir. 
American Samoa is an expensive place to operate for a tuna 
cannery. Nonetheless, it is a good place for a lot of reasons. 
And there is always that balance of economics. To address your 
earlier point, I don't think the marine monument was the only 
reason for the closure of the cannery, no. There are other 
reasons.
    Mr. Grijalva. Thank you. That is the point, that there was 
no singular reason, there was a combination of reasons.
    Mr. Chiasson, you expressed concern over the proposed 
expansion of the Flower Garden Banks National Marine Sanctuary 
in the Gulf of Mexico to a size of less than 383 square miles. 
By contrast, President Trump's plan for oil and gas lease sales 
in the Gulf's western, central, and eastern planning areas was 
more than 114,000 square miles.
    Do you believe it is unreasonable to protect less than \1/
10\ of 1 percent of critical fish and coral habitat in these 
areas of the Gulf from oil drilling?
    Mr. Chiasson. I think in order to establish energy 
independence we need to have everything open.
    Mr. Grijalva. So, it is----
    Mr. Chiasson. I am not saying it is to the detriment of 
fisheries or any habitat.
    Mr. Grijalva. So, your point is these 383 miles need to be 
open as well, correct?
    Mr. Chiasson. Correct.
    Mr. Grijalva. OK. Thanks.
    Dr. Bruno, in your testimony, you point to a significant 
scientific evidence of the importance of marine reserves like 
marine national monuments for increasing the productivity of 
fisheries and benefiting the fishing industry as a whole.
    Your fellow panelist there, Mr. Hallman, claims that marine 
reserves only hurt fishermen and that eliminating fishing 
pressure from those areas does not benefit stocks of highly 
migratory species like tuna.
    Are these claims accurate? Will you please talk in a little 
more detail about the importance of spillover effects in 
improving fishery harvest? And can marine reserves help protect 
and restore populations of wide-ranging marine species like 
tuna, sharks, whales, and seabirds? In 1 minute. I am sorry.
    Dr. Bruno. It is OK.
    Yes, absolutely, there is very clear scientific evidence 
that marine reserves increase fisheries' productivity via the 
spillover effect.
    That is not necessarily true for highly migratory species. 
As Mr. Hallman has testified, a lot of these tuna swim in and 
out of these very, very small reserves. But, as a result, these 
small reserves have absolutely no impact on the fishery's 
catch, the tuna fishery in the PRI. The former purse seine 
catch in the PRI was about 1 percent of their total catch. That 
is obviously a tiny amount. The fish move through the monument, 
so they cannot possibly be locked up in the monument. And, 
finally, this is a quota-based fishery, so there is a certain 
number of fishes that the tuna boats are allowed to catch every 
year. The monument designation has zero impact on that number.
    So, it does not in any way restrict the number of tuna that 
have been caught. In fact, tuna catches have been going up in 
recent years post-sanctuary implementation. Overall, there is 
no evidence that the sanctuary has any negative effect on the 
tuna fishery, despite what Mr. Hallman testified, and there is 
good evidence to suggest that they have benefited the fishery 
because it has increased and gone up.
    Mr. Grijalva. Thank you.
    I yield back, Mr. Chairman.
    Mr. Webster. The Chair recognizes the gentleman from 
Louisiana, Mr. Graves, for 5 minutes.
    Mr. Graves. Thank you, Mr. Chairman.
    Dr. Bruno, thank you for being here today.
    Just a quick question for you. Under marine sanctuary 
designations, there is an opportunity for public comment and 
participation. Under national marine monuments, there is not. 
Do you have a preference on either one of those?
    Dr. Bruno. I really do not have any professional opinion on 
that.
    Mr. Graves. Do you think the public should be able to 
participate?
    Dr. Bruno. Absolutely. I certainly think the public should 
be able to participate in that process.
    Mr. Graves. Great. Thank you.
    Mr. Chiasson, I want to go back to the line of questioning 
that the Ranking Member just posed. Let me ask you a very 
simple question. When you go fishing offshore, where do you go?
    Mr. Chiasson. I go to the platforms and the rigs offshore.
    Mr. Graves. Have you and I scripted this in any way?
    Mr. Chiasson. No, not at all.
    Mr. Graves. All right.
    Mr. Chairman, there is a fundamental misunderstanding. 
Look, we fish. That is what we do, we fish. There is this 
belief that you cannot have proper management of fisheries 
without a marine monument designation or a sanctuaries 
designation. That is not the case. That is where we fish. That 
is the habitat for the fish. And it is amazing, the explosive 
productivity that occurs in these areas.
    So, I love all of these landlocked states that are now fish 
experts telling us what we need to do with our Gulf, but let me 
point out a few things.
    The most productive commercial fisheries in the continental 
United States are off the coast of Louisiana. At the same time, 
let me tell you what we have. You have six states that produce 
offshore energy--Alaska, California, Texas, Louisiana, 
Mississippi, and Alabama--six states. When you add up the 
offshore production in Federal waters for Alaska, California, 
Texas, Mississippi, and Alabama and you multiply it times about 
three or four, that is how much offshore production you have in 
Louisiana. And at the same time--I will say it again--we have 
the most commercial seafood production in the continental 
United States.
    So, it is not a we have to choose one or the other. You can 
actually manage these things, and they can co-exist. The place 
we go to catch the fish is we tie up to the rigs. Now, look, I 
am not going to sit here and say that we need to be 
irresponsible and not have appropriate environmental 
regulations in place and allow people to spill oil and other 
things. I am not saying that. But this is not an exclusivity 
thing. You can actually do both. And I think that point is 
unfortunately being missed, and I think that is very dangerous, 
to think that you cannot do one or the other.
    I want to ask a question to anybody actually on this panel. 
When you pull up the Antiquities Act--and when I say ``this 
panel,'' that means up here as well--it gives the President the 
authority to establish these monuments, and it says ``that are 
situated upon lands''--lands--``owned or controlled by the 
Government of the United States.''
    Anybody here care to comment on why we are talking about 
water right now when the statute says lands? Up here, there, or 
anywhere? Anyone care to comment on that?
    OK. Just curious as to why we are talking about water when 
the law actually says lands.
    Let me go to another question here.
    Dr. Bruno, I want to ask you, based on what I was just 
talking about, do you believe that you can actually manage 
fisheries in a way without coming in and saying that these 
areas are off limits to any fisheries, recreational, 
commercial, or energy production and other things? Do you think 
that you could actually have a management plan that would allow 
for different types of activities to co-exist while still 
sustainably managing the fisheries?
    Dr. Bruno. Absolutely. I mean, different activities 
certainly can co-exist. And that is really what we are talking 
about here, is zoning these activities, just having them 
slightly spatially segregated. Yes.
    Mr. Graves. Great. Thank you.
    And, Mr. Hallman, your members' business depends upon the 
sustainability of the fisheries. I have said this on this panel 
before, and I will say it again--sustainability of fisheries is 
a critical priority to me. I don't want just my kids and me to 
be able to fish. I want future generations to be able to fish, 
as well. It is an important part of our culture and economy in 
south Louisiana.
    Do you believe that active fisheries management, rather 
than just shutting things off, do you believe that you can 
possibly sustainably manage fisheries by doing that?
    Mr. Hallman. No, I don't believe--I believe that is 
detrimental to sustainable management of fisheries. And I agree 
with you----
    Mr. Graves. When you say ``that is detrimental,'' you are 
talking about shutting areas down.
    Mr. Hallman. Shutting off areas arbitrarily without--based 
on good, rigorous science.
    Mr. Graves. Because I know cases where you have certain 
populations of species that actually become explosive, to the 
detriment of other species, because they affect habitat or food 
sources and other things. So, in some cases, you need to 
actually active-manage, catch, or cull different species in 
order to ensure the right diversity and populations.
    Mr. Sablan. Will the gentleman yield for an answer to his 
question?
    Mr. Graves. You can have all the time I have left.
    Mr. Sablan. OK.
    Mr. Graves. Thank you, Mr. Chairman.
    Mr. Bishop. Can I interrupt also and interject just 1 
second? Because I also, I didn't want to take away your time, 
but I also had another answer to the question you gave.
    Let me ask unanimous consent to put into the record the 
announcement of the lawsuit done by the Pacific Legal 
Foundation over exactly your point on lands and water. And 
while you are sitting there thinking of your next round, try 
and figure out--because the law also says it is the smallest 
footprint. I am trying to figure out how you get a footprint in 
water.
    But let me ask UC to include that in the record.
    Mr. Webster. Without objection.

    [The information follows:]

    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    

Contact:
        Jonathan Wood, Attorney       Damien M. Schiff, Senior Attorney
        Pacific Legal Foundation      Pacific Legal Foundation
        <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a8c2dfe8d8c9cbc1cec1cbc4cdcfc9c486c7dacf">[email&#160;protected]</a>           <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7f1b120c3f0f1e1c1619161c131a181e1351100d18">[email&#160;protected]</a>
        (703) 647-4119                (916) 419-7111
        www.pacificlegal.org          www.pacificlegal.org

    New England fishermen challenge Obama's marine national monument

    Creation of the Northeast Canyons and Seamounts Marine National 
Monument exceeded the Antiquities Act, which authorizes monuments only 
                     on federal land, not the ocean

Boston, MA; March 7, 2017: A coalition of New England fishermen 
organizations filed suit today over former President Barack Obama's 
designation of a vast area of ocean as a national monument--a dictate 
that could sink commercial fishing in New England.

The organizations filing the lawsuit are the Massachusetts Lobstermen's 
Association, Atlantic Offshore Lobstermen's Association, Long Island 
Commercial Fishing Association, Rhode Island Fisherman's Alliance, and 
Garden State Seafood Association.

They are represented, free of charge, by Pacific Legal Foundation, a 
watchdog organization that litigates nationwide for limited government, 
property rights, and a balanced approach to environmental regulations.

Watch this brief video

The lawsuit challenges President Obama's September 15, 2016, creation 
of the Northeast Canyons and Seamounts Marine National Monument, 130 
miles off the coast of Cape Cod.

``By declaring over 5,000 square miles of ocean--an area the size of 
Connecticut--to be a national monument, President Obama set this entire 
area off-limits to most fishing immediately, with what remains of 
fishing opportunities to be phased out over the next few years,'' said 
PLF attorney Jonathan Wood. ``This illegal, unilateral presidential 
action threatens economic distress for individuals and families who 
make their living through fishing, and for New England communities that 
rely on a vibrant fishing industry.''
                A monumental abuse of presidential power
President Obama claimed to be relying on the federal Antiquities Act. 
But as today's lawsuit makes clear, his decree far exceeded the 
authority granted to presidents by that 1906 statute. The Antiquities 
Act was enacted to protect ancient antiquities and human relics 
threatened by looting, giving the president broad powers to declare 
monuments consistent with that purpose.

However, the statute permits creation of national monuments only on 
``lands owned or controlled'' by the federal government. Moreover, any 
designation must be ``confined to the smallest area'' needed to protect 
the artifacts or objects that the monument is intended to safeguard.

``President Obama violated both of those core requirements of the law 
when he created the Northeast Canyons and Seamounts Marine National 
Monument,'' Wood noted. ``Most fundamentally, the ocean, where the 
monument is located, is not `land,' nor is it federally owned or 
controlled. The monument designation is also not confined to the 
smallest necessary area; on the contrary, its sprawling boundaries bear 
no relation to the underwater canyons and seamounts it is supposed to 
protect. In short, the designation of a vast area of ocean as a 
national monument was a blatant abuse of presidential power.

``Unfortunately, the Antiquities Act has morphed into a favorite tool 
for presidents to abuse,'' Wood continued. ``Today, presidents use it 
to place vast areas of federal lands off limits to productive use with 
little input. Monument designations are particularly common at the end 
of a chief executive's term, once the president can no longer be held 
accountable.

``Former President Obama was the king of Antiquities Act abuse, 
invoking it more times than any prior president and including vastly 
more area within his designations than any predecessor,'' said Wood. 
``Our lawsuit is intended to rein in abuse of the Antiquities Act and 
underscore that it is not a blank check allowing presidents to do 
whatever they want. The creation of the Northeast Canyons and Seamounts 
Marine National Monument is a clear example of a president exceeding 
his authority, and we are suing to make sure this edict is struck down 
and the rule of law prevails.''
                     No environmental justification

``Beyond its violation of the law, the monument designation also 
threatens to harm the environment by pushing fishermen to other, less 
sustainable fisheries, and increasing conflicts between their gear and 
whales,'' said Wood. ``The president's proclamation cites protection of 
coral as one of the reasons for the monument. But the corals remain 
pristine after more than four decades of commercial fishing because 
fishermen know where the corals are, and carefully avoid them, out of 
environmental concern and because coral destroys their gear.

``Instead of punishing New England's fishermen--and shutting down their 
businesses--federal officials should be acknowledging their positive 
role as stewards of the ocean's environmental resources,'' Wood added. 
``This is shown in their laudable efforts to promote sustainability. 
PLF's clients, for instance, have spent years working to improve their 
methods and equipment and to retire excess fishing permits, knowing 
that these costly sacrifices will provide long-term benefits to their 
industry and the environment. The monument designation undermines those 
sustainability efforts, by depriving the fishermen of any reward for 
their sacrifices.''
With a `stroke of the pen,' Obama's illegal action `puts men and women 
                              out of work'
``We are fighting every day to keep the men and women in the commercial 
fishing industry working, but with one stoke of President Obama's pen--
and his abuse of the Antiquities Act--they are out of work,'' said Beth 
Casoni, executive director of the Massachusetts Lobstermen's 
Association.

``The monument designation will have a negative rippling effect across 
the region as fishermen will have to search for new fishing grounds--
only to find they are already being fished,'' she said. ``The shoreside 
businesses will also feel the impacts, as fishermen have to go further 
and further to harvest their catch, leaving less funds to reinvest in 
their businesses.

``We are extremely grateful to have PLF at our side as we fight back 
against this legal travesty, which is causing so much hardship for the 
commercial fishing industry here in the Northeast.''

The case is Massachusetts Lobstermen's Association v. Ross. More 
information, including the complaint, a video, a podcast, photos, and 
an explanatory blog post, is available at: www.pacificlegal.org.

                                 ______
                                 

    Mr. Grijalva. Mr. Chairman, if I may?
    Mr. Webster. Yes.
    Mr. Grijalva. If I may, if there is no objection, enter 
into the record the memorandum opinion from the Solicitor of 
the Department of the Interior, General Counsel of NOAA, and 
General Counsel for the Council of Environmental Quality that 
was issued for both President Bush and President Obama when 
they did their marine designations.
    Mr. Graves. Can I ask a point of clarification, Mr. 
Chairman?
    Mr. Ranking Member, I just want to make sure that you 
concur in that. Is that accurate? You concur in that it does 
apply to waters as well?
    Mr. Grijalva. I introduce these into the record at this 
point. Thank you.
    Mr. Webster. Without objection, both motions are approved.
    Mr. Bishop. And I am not going to object either, because we 
are cutting down more trees to put all these things in the 
record.
    Mr. Webster. Mr. Beyer, you are recognized for 5 minutes.
    Mr. Beyer. Thank you, Mr. Chairman, very much.
    While we are putting things on the record, some opponents 
of the Northeast Canyons and Seamounts Marine National Monument 
have claimed that there was a lack of public and scientific 
support for the proposal and that stakeholders' concerns were 
not taken into consideration, even though the monument was 
reduced in size significantly from the original proposal and 
fishing will be phased out over the years based on industry 
feedback.
    I would like to submit for the record, if there is no 
objection, a large body of scientific evidence supporting 
designation of the monument, along with dozens of letters from 
scientists, businesses, conservation groups, and others in 
favor of the designation.
    Thank you very much. If there is no objection, Mr. 
Chairman.
    Mr. Bishop. That is a big forest right there.
    Mr. Beyer. Exactly.
    And my friend, the distinguished Member from Alaska, seemed 
to lay blame and responsibility on universities as an important 
part of the process to establish marine monuments and 
sanctuaries, as if that were a terrible thing.
    As the father of a Brown graduate, let me address the Brown 
Ph.D. in Ecology and Evolutionary Biology, Dr. Bruno, and ask: 
Is there science behind these designations?
    Dr. Bruno. Absolutely. In addition to the science I have 
already talked about, these are not randomly selected areas. I 
mean, these are the most pristine ecosystems we have left on 
the planet. We very specifically target, you know, the best of 
the 1 percent that is still out there.
    Mr. Beyer. Some people have expressed concerns about the 
Northeast Canyons and Seamounts Marine National Monument, but I 
am optimistic about the long-term benefits.
    One of the things in the written statement of the New 
Bedford mayor, who didn't come, he said that the Atlantic 
monument designation established a moratorium on fishing in the 
water column above the monument seabed, and this approach was 
of serious concern for pelagic fisheries because pelagic 
fishermen have no impact on the integrity of the bathymetry and 
substrate that a monument is meant to protect.
    Can you respond to the mayor on this?
    Dr. Bruno. I can say that the monument was not only meant 
to protect the deep-sea corals and other invertebrates, but it 
was meant to protect the water column. It is a hotspot for 
marine mammals. There are sperm whales, humpback whales near 
the surface and that dive down into the water. There are 
seabirds, over winter, puffins, on the surface of the water. 
So, it is really kind of a surface-to-sea-floor protection.
    Mr. Beyer. Last fall you wrote an Op-ed entitled, ``Marine 
reserves lead to bigger fishes--Florida needs more of them.'' 
And again, if there is no objection, I would like to enter that 
essay into the record.

    [The information follows:]

THE HUFFINGTON POST
Marine reserves lead to bigger fishes--Florida needs more of them
John Bruno, Contributor

Marine Ecologist

11/22/2016 03:44 pm ET

The ongoing battle over the planned marine reserve in Biscayne Bay has 
scientists and citizens scratching our heads. The impassioned 
opposition to the proposed protection of a tiny sliver of our shared 
resource is stunningly out of proportion to what the National Park 
Service (NPS) has proposed. Moreover, the arguments made by opponents 
have not been based on science and are mostly illogical. For example, 
citing a scientific paper I co-authored, Representative Ros-Lehtinen 
correctly pointed out in an op-ed that a marine reserve in Biscayne Bay 
National Park wouldn't protect Florida's remaining corals from global 
warming. However, this is analogous to arguing brushing your teeth is 
unnecessary because it doesn't prevent cancer. Protecting corals from 
climate change isn't the purpose of a marine reserve, although reserves 
provide countless other benefits. If Rep. Ros-Lehtinen wants to protect 
corals from climate change, her party and her CORAL bill should support 
the move to renewable energy, one of the few actions that could in fact 
protect and restore corals and the reefs they build.

While marine reserves are not a panacea for everything afflicting the 
ocean, the science indicates, in literally hundreds of case studies, 
that reserves can greatly benefit fishes, fisherman, and coastal 
economies based on tourism. This is because the fishes that are allowed 
to grow large and reproduce within a protected area eventually leave 
(with their babies) and can then be caught. This is called the 
``spillover effect'' and is the reason why trophy fishes are so often 
caught adjacent to reserves, like the Merritt Island National Wildlife 
Refuge.

The resistance of fishing groups and some of our elected officials 
stems from the ``freedom to fish'' mentality that considers fishing a 
right that should not be constrained. To most Floridians, this is 
preposterous: we can't drive, hunt, skateboard, smoke, fly a kite or be 
naked anywhere we'd like. Government places restrictions on all kinds 
of activities to separate things that don't belong together, e.g., 
highways and playgrounds. In marine conservation, this is called 
spatial planning--working within constraints of the seascape, the local 
ecology, and the demands of user groups, we zone the oceans to try to 
keep everybody happy and safe. The NPS is only proposing some much 
needed zoning to reduce the dangerous (occasionally chaotic) comingling 
of activities currently taking place throughout the Bay. To me, setting 
aside 6% of a national park, so people can observe wildlife in a safe, 
low impact manner is a no-brainer. Recreational fishing would still be 
allowed in 94% of the parks waters and across thousands of square miles 
of prime fishing habitat outside the parks boundaries.

I work mainly on the effects of climate change on corals and other 
marine critters. As Rep. Ros-Lehtinen pointed out, my work shows that 
marine reserves do little to mitigate those impacts. Yet, as a 
scientist, I still strongly support the establishment and expansion of 
marine reserves throughout Florida for their proven benefits for fish 
populations. If the planned Biscayne Bay reserve has a flaw, it is that 
it is way too small--a groundbreaking study recently found that to 
maximize benefits for fish and fisherman, at least 30% of the oceans 
should be protected (essentially creating nursery grounds that would 
massively boost the profitability of commercial fishing).

I also support the planned reserve as a father. Last summer, my family 
and I spent our vacation in the Florida Keys, which we've been doing 
since the early 1970s. Every day, we snorkeled in the Sombrero Reef 
Special Protected Area, where, safe from harvesting, the fishes are 
absolutely stunning. Snorkeling just a mile outside the reserve was a 
totally different experience; the fish are much smaller, scarce, and 
afraid.

Scientists, snorkelers, SCUBA divers, reasonable fisherman, and parents 
don't have lobbying groups, but if we did, we'd deploy them to convince 
our representatives to support the Biscayne Bay reserve and the general 
expansion of protected areas throughout Florida. Instead, we have to 
rely on public comment periods, during which time 90% of 43,000 pieces 
of correspondence received were in support the marine reserve. Congress 
simply hasn't listened.

                                 ______
                                 

    Mr. Beyer. The topic was the proposed no-take marine 
reserve in Biscayne National Park. I was there with our 
Chairman a year ago. And you argue it was a no-brainer because 
in addition to other benefits, there were actually more and 
bigger fish for anglers to catch. We seem to have seen this in 
marine monument to marine monument, that fishery catch actually 
goes up. This then was echoed by Bouncer Smith, who was a south 
Florida charter captain who testified before the Committee in 
Homestead, and many other saltwater anglers, scuba divers, and 
tourism-related businesses.
    Can you discuss why protecting part of the reef, I believe 
there is only 6 percent of the reef that was good for Biscayne 
Bay and good for fishermen.
    Dr. Bruno. Yes, absolutely. Like as you just said, that is 
where the fish get big. Any sports fisherman knows that is 
where you go to get a record fish, you fish right in the edge 
of the marine park, whether it is Florida or anywhere else.
    Mr. Beyer. And then if I want to shift just to Mr. Chiasson 
for 1 second. I just wanted to thank you for one thing you said 
here. Too many pieces of paper. I can't find it, let me 
paraphrase you. When you said that on a daily basis, you are 
convinced and proud of the fact that you have to find the right 
balance between the natural resource exploitation, the fishing, 
and the preservation of the environmental balance, and you said 
it very well twice in the same paragraph. How do you reconcile 
that with your response to the Ranking Member that you also did 
not want to have any restriction on the 383 square miles?
    Mr. Chiasson. I think, if I could elaborate on what I said 
to him, there is a large amount of technology that exists in 
the offshore drilling that can allow for the tapping into the, 
so to speak, fossil fuels with direction of horizontal 
drilling, and not taking it off the footprint of allowing 
access to that energy production. When I said that, I mean, 
let's not take it all for the allowance of offshore activities 
in that footprint.
    Mr. Beyer. I liked your first answer better, but thank you 
very much.
    Mr. Chair, I yield back.
    Mr. Webster. The Chair recognizes Mr. Wittman for 5 
minutes.
    Mr. Wittman. Thank you, Mr. Chairman. I want to thank you 
for holding today's hearing on national marine monuments and 
sanctuaries. My background is working in the area of biology 
and fishery science for over 27 years running the seafood 
safety program in the state of Virginia, so I know a little bit 
about this particular subject area. I have heard from hundreds 
of folks in my district along the Potomac River, including the 
State Delegate who represents that area, Margaret Ransone, who 
is in the seafood business herself, about a proposed Mallows 
Bay Potomac River marine regional sanctuary, and the impact 
that it would have on watermen and seafood businesses. And by 
the way, my son is a waterman, so I hear from him on a daily 
basis. He makes his living off of the water.
    The management in that region is put in the hands of a bi-
state commission, it is adjudicated by members from Virginia 
Marine Resources and Maryland Marine Resources. They are in 
charge of managing those resources. We all understand the 
economic impacts of the resources in that river have. We 
understand crab populations and oyster populations coming back, 
good examples of good management.
    My concern is that the National Marine Sanctuaries Act does 
not contain any legal protections for fishermen who have been 
fishing these waters for years. And the sanctuary plan 
supersedes any existing regulations. We all know, too, that the 
Act does not contain any provisions that require sanctuaries to 
use science-based management, meaning sanctuary managers can 
prohibit fishing in sanctuaries without scientifically 
justifying a fisheries ban.
    And in the case of the Mallows Bay Potomac River region 
sanctuary, NOAA has promised stakeholders that the state of 
Maryland can maintain full adjudication of managing the 
resources there, including the Potomac River Fisheries 
Commission.
    Mr. Hallman, I want to ask you, I know that American Samoa 
was promised exactly the same thing. Can you tell me how this 
has worked for American Samoa, with the decisions now being 
made about marine resources there under this Act? Tell me how 
that has worked out?
    Mr. Hallman. Well, I have a little reluctance to speak for 
American Samoa, because that is not who I represent. But I 
don't think it has worked out well, Congressman. Again, I go 
back to one of my basic points in my testimony, which is that 
there are existing scientific procedures already established in 
law that you have alluded to, and they apply to Samoa, to all 
over the world. So, why these would be pre-empted by some other 
executive branch, or professors, or whatever it is, when some 
of the best procedures in law and science are already there to 
do this and doing a pretty good job. That is what I don't 
understand. And I think that is one of the key points.
    Mr. Wittman. Thank you, Mr. Hallman.
    I want to ask the other panel members, when we look at 
these designations and in now taking decision-making away from 
states, who have had records of good management practices, 
resources being restored, and now you replace that with an 
ability for Federal decision-makers to make decisions without 
science, without the knowledge of local fisheries, the effort 
that goes in by those managers, do we believe that that is the 
right way to manage these particular areas? And is the right 
way to do fisheries management through taking out of access for 
recreational and commercial fisherman those areas that are most 
biologically productive, and then tell folks, ``By the way, you 
have all these other hundreds of thousands of square miles of 
water that are open to you that have no biological ability to 
support fish.'' Is that the right way to go about managing 
this? I ask any panel member to give me their answer on that.
    Dr. Bruno. It is not, but that is not how the process works 
at all. For example, these monuments do not exclude 
recreational fishing, they really promote it. It is enjoyed in 
them. And that it is not part of the what the monuments are 
designed to do.
    Mr. Wittman. So, there has not been any limitation on 
recreational fishing in any of these national marine 
sanctuaries?
    Dr. Bruno. No, I can't say that. There has been.
    Mr. Wittman. OK. So, when it is promised by NOAA that that 
will not happen and it has happened elsewhere, you don't think 
we should be suspect, or, at least, questioning of that and 
when NOAA now supersedes the responsibility that is, I think, 
sovereign with states, to manage the resources that are in 
their state waters, the waters of the Potomac that are 
adjudicated jointly on an agreement between Virginia and 
Maryland that now NOAA, a Federal Government entity, should 
supersede the sovereignty of states for their own resources? Do 
you believe that is proper?
    Dr. Bruno. No, I do not.
    Mr. Wittman. Thank you. Mr. Chairman, I yield back.
    Mr. Webster. Mr. Panetta, you are recognized for 5 minutes.
    Mr. Panetta. Thank you, Mr. Chairman. I appreciate that. 
Gentlemen, first of all, let me thank all three of you for 
taking the time and your efforts to come here and testify. I 
know it can take a lot, and I want to thank you for that. So, I 
appreciate that.
    Mr. Bruno, I appreciate you putting up that picture of your 
two daughters, because in some way it goes to what Mr. Young 
was saying that people are important in this process, there is 
no doubt about it. I have two daughters, and I am proud that 
they are growing up in the central coast of California, and 
being exposed to a monument and national marine sanctuary that 
we have there on the Monterey Bay, the Monterey Bay Marine 
Sanctuary, as well as the California Marine Monuments Act as 
well. And what I have seen in my experience, having grown up 
there, is that it does greatly benefit the people of that area. 
And I would ask you, in your experience in dealing with 
monuments and marine sanctuaries, do they benefit fishermen?
    Dr. Bruno. They absolutely do benefit fishermen, including 
recreational fishermen.
    Mr. Panetta. Does it benefit tourism?
    Dr. Bruno. Hugely, and that is why in almost every case the 
people are strongly in support. In Connecticut, I believe it 
was 68 percent; in Hawaii a very large majority of the 
population--not the industry groups--support monument 
implementation. There are 3 million people in America that 
scuba dive; 50 million that are saltwater fishermen. The scuba 
industry is $11 billion, adds $11 billion toward GDP; 
recreational fishing, $70 billion. These are big numbers and 
these are the activities that these monuments promote and 
really develop.
    Mr. Panetta. Does it benefit research?
    Dr. Bruno. Absolutely, these monuments are critical to 
research. There is really nowhere else we can go to figure out 
a lot of things about how the oceans work that we really don't 
know yet.
    Mr. Panetta. I think recently in the central coast of 
California, we had an issue with our sea stars and how they 
were shrinking away. And there was a research institution from 
UCSC, University of California Santa Cruz, that actually 
figured out the issue. Isn't that correct?
    Dr. Bruno. That is right, it appears to be linked to ocean 
warming.
    Mr. Panetta. Mr. Hallman, I appreciate what you had to say 
about being involved in the process. I saw, firsthand, 
indirectly with a Congress Member who was a major participant 
in the creation of the Monterey Bay National Marine Sanctuary. 
And the way they did that is bringing everybody to the table in 
order to get things done, in order to hear things out. I think 
that is something we should learn in Congress, to be honest 
with you, that you cannot just have one side cram legislation 
through, you have to be able to come and talk about it on both 
sides. And this way you have lasting legislation, lasting 
policies. Is that correct?
    Mr. Hallman. I agree with you, Congressman. I believe there 
should be transparent and public opportunity for all of these 
kinds of decisions that affect people.
    Mr. Panetta. Exactly. I was a member of the Sanctuary 
Advisory Council of the Monterey Bay National Marine Sanctuary. 
Has anybody ever been involved with the Sanctuary Advisory 
Council for a marine national sanctuary? It is sort of 
something where everybody is at the table--you have fishermen, 
you have representatives of tourism, of industry, of research 
institutions, from NOAA, all types of fishermen are there. It 
is something where they are able to basically manage the 
sanctuary and talk about the issues with the sanctuary. I think 
that is important. You know, with the Antiquities Act, when you 
say that there was no science involved, Mr. Hallman, of the 
Antiquities Act that was used, you said you woke up one 
morning, and next thing you know there was a monuments act that 
was brought down upon you. Is that correct?
    Mr. Hallman. Yes, that is correct.
    Mr. Panetta. And are you saying there was no science used 
to come up with that?
    Mr. Hallman. Well, there may have been some used, but it 
was not science that was reviewed or that anybody could look 
at. It was almost done--I hate to sound conspiratorial, but 
almost a secretive kind of process and not one that we are used 
to in fisheries management, which is a transparent, public 
process with good scientists and people going back and forth 
and figuring things out--that did not happen.
    Mr. Panetta. Thank you very much. I yield back my time.
    Mr. Webster. Mr. Bishop, the Chair, questions?
    Mr. Bishop. Thank you. I appreciate it.
    I am happy to be here at this time and hear your testimony. 
I should probably go first so I don't get worked up before I 
ask my questions. Let me speak on behalf of the mayor, the good 
mayor who is not here because of the snowstorm, which is 
unfortunate, because I have a great deal of respect for the 
mayor in New Bedford. I was up there last summer with him, and 
actually, I was told these were going to be action photos of 
that trip, there is not a hell of a lot of action going on up 
there. We were there also with the local Congressman, Bill 
Keating. Part of the visit, we met with dozens of local 
fishermen in the industry, as well as to talk about the 
Magnuson-Stevens Reauthorization as well as the State-Federal 
fisheries management. We also did the tour of the boatyard, the 
working boatyard, and we were on some of the commercial fishing 
vessels, and it did not take a long time to actually start 
talking about the Marine National Monument off the coast.
    When we went to the round table of the Whaling Museum, the 
fishermen came in there, the local community came in there to 
talk about an alternate solution that they were there and they 
showed to me, as well as Mayor Mitchell. This alternative 
protected most of the ocean floor, well above the 
Administration's unilateral and arbitrary designation, and 
contained almost the same area within the designation, but 
under their alternative, the bottom-tended fishing gear, such 
as lobster and crab traps, were prohibited outside the 900-
meter depth mark that all boats using the mid-water and surface 
fishing gear were allowed to continue fishing, since none of 
that gear actually did have any impact on the coral which the 
Administration and special interest groups that were pushing 
it, alleged that was their goal to protect.
    So, this type of pragmatic and collaborative approach was 
supported by the industry and the Atlantic States Marine 
Fisheries Commission, which is composed of states from Florida 
through Maine. But it was totally rejected without any kind of 
explanation on why. The alternative was not considered by the 
Administration.
    So, Mr. Hallman, if I could ask you, in your testimony, you 
seem almost as confused as I am as to why mid-water and surface 
fishing gear is prohibited without the discussion of what that 
alternative could mean in this particular area. When you have 
been faced with some of the proposed expansions and marine 
monuments in the world in which you live, have you ever 
suggested a similar idea about nondisruptive fishing gear types 
to be used within these monuments?
    Mr. Hallman. Well, if I understand your question, sir, it 
is not something that we talk about in terms of the monuments. 
We talk about the use of the gear in a sustainable way.
    Mr. Bishop. Have you talked about any of that with 
Administration folks in the past?
    Mr. Hallman. No, not with the Administration, no.
    Mr. Bishop. Was it ever received by those groups with whom 
you had discussions?
    Mr. Hallman. No, sir.
    Mr. Bishop. OK. Which is kind of one of the issues and 
questions we have, especially when we start talking about the 
serious pristine. I think in 2015, we had a discussion of 
another monument proposal off the coast of Cape Cod, the same 
kind of verbiage was used there, as well as kind of interactive 
opportunities that were used there. Mr. Chiasson, am I 
pronouncing that close?
    Mr. Chiasson. Yes.
    Mr. Bishop. It is a Louisiana name, so Smith.
    When NOAA released their draft environmental impact 
statement expanding the Flower Garden Banks National Marine 
Sanctuary off the coast of Texas and Louisiana, their agency's 
preferred alternative was, I think, what is currently up there, 
and the agency's preferred alternative was the one at the 
bottom, I believe, but it increased from 56 square miles to 383 
square miles. That is a 600 percent increase. The second image 
below--this is the correct one--is recommended by the advisory 
committee, which is the area that is in red, and that is about 
100 square miles smaller than what the agency was pushing. 
There are really very few places like the Gulf of Mexico, where 
energy exploration and fisheries coincide in such a 
complementary fashion.
    In your testimony, you repeatedly gave examples of how 
important it is to the economy of Louisiana and ports that they 
remain multiple use. This is more evident, especially in the 
RAND Corporation LSU studies, that also you cited in your 
testimony, that accounts for nearly a $4 billion annual to the 
direct economy and 11,000 Louisiana jobs.
    How much of the economic activity is directly relating to 
fishing and offshore energy in those ports in Louisiana?
    Mr. Chiasson. Virtually all of it.
    Mr. Bishop. All right. What will walling off more zones 
from activities do to the local and regional economy there?
    Mr. Chiasson. It will certainly negatively impact the 
economies in our region, in our state.
    Mr. Bishop. OK. After the preferred alternative was 
released by the agency, the advisory committee members called 
the entire process bait and switch, which is kind of cute, 
considering what you are doing. In your dealings with fishermen 
and others in Louisiana, do you feel that there was a common 
sense of frustration when the agency finally released its 
preferred alternative?
    Mr. Chiasson. Yes, absolutely.
    Mr. Bishop. What does it say about the integrity of these 
advisory councils that we asked to actually give input, when it 
is totally ignored by administrations who make arbitrary 
decisions.
    Mr. Chiasson. It absolutely devalues the process.
    Mr. Bishop. Let me ask a couple of other questions that 
were brought to my attention. I am sorry. I will ask other 
questions at an appropriate time, but I am not asking more 
stuff to be added into the record because our staff is already 
freaking anyway.
    Mr. Webster. Mr. Lowenthal to be recognized for 5 minutes.
    Mr. Lowenthal. Thank you, Mr. Chair. Thank you for letting 
me speak today and to join you on this fascinating hearing. And 
I want to thank all the panelists, also.
    I want to start with some questions I have with, first, Mr. 
Chiasson. In your written testimony, I think you mentioned 
GOMESA in the written testimony, and especially about funding 
coastal restoration activities, which I agree with you are very 
important and I am very supportive of that also. But I think 
GOMESA is also being used to fund infrastructure projects too, 
such as the elevation of the Louisiana 1, which, I believe, you 
are also in support of. Is that true?
    Mr. Chiasson. Yes, sir.
    Mr. Lowenthal. Why does Louisiana 1 need to be elevated?
    Mr. Chiasson. Why does it need to be elevated?
    Mr. Lowenthal. Yes.
    Mr. Chiasson. It is the only highway in Louisiana, or one 
of the major highways in Louisiana, that has been impacted by 
coastal land loss.
    Mr. Lowenthal. By what?
    Mr. Chiasson. Coastal land loss.
    Mr. Lowenthal. Coastal land loss.
    Do you think that sea level rise or extreme weather related 
to climate change is a problem?
    Mr. Chiasson. Yes, but the majority of our problem in south 
Louisiana is subsidence.
    Mr. Lowenthal. Subsidence. Also do you believe that human 
caused emissions from the burning of fossil fuels do contribute 
to climate change?
    Mr. Chiasson. Yes.
    Mr. Lowenthal. Thank you.
    I would like to follow up on this, I think, very 
fascinating and, I think, very productive argument about how 
you balance development with protection. I think it was my 
colleague from Louisiana, which I want to compliment, he talked 
about that you can manage fisheries and have mineral extraction 
at the same time. They can co-exist. These are not necessarily 
in competition with each other, they can work together.
    I would like to also mention that in my part of the 
country, in our ports of Los Angeles and Long Beach, when we 
embarked on clean air protection, it was said that you cannot 
have environmental protection and economic development, but 
over the last 10 years, we have demonstrated the very same 
thing. Under the right planning, you can have great 
environmental protection, protect our citizens from both 
immediate impacts of particulates, and you can also move 
forward the economy and advance. So, I want to follow up on 
that, in agreement with that. And I think that is a model we 
should always be aware of that we make these binary kind of 
exclusions, one or the other when, in fact, it just means that 
we should be reformulating the paradigm in seeing how we can 
work together to enhance both. I am glad that you brought that 
up.
    But I want to go now to Dr. Bruno, in following up this 
same kind of balancing development with protection. We have set 
aside, as you know, thousands of acres of Federal and state 
waters as protected areas, we talked about the sanctuaries, 
reserves--not so much reserves, but monuments. But to be clear, 
in my understanding in talking about this balance, they really 
only amount to 1 percent of the ocean waters that are under the 
jurisdiction of the United States. Is that correct? We are 
talking about 1 percent of the ocean waters?
    Dr. Bruno. Yes, overall for U.S. waters, it is about 13 
percent, but in many regions, it is very small. The canyons and 
seamounts account for 1.5 percent of our fishing grounds in New 
England. NOAA's proposed expansion of the Texas Flower Gardens 
would take us from \1/4\ of a percent to \1/2\ of a percent of 
the Gulf of Mexico open to oil and gas exploration.
    Mr. Lowenthal. Let's go back to now, because we are really 
trying to figure out what is, to me anyway, what is that 
balance and how do we--let's go to what was brought up just 
previously about the Flower Garden Banks expansion. That would 
encompass, I believe, about 383 square miles. Is that not true? 
Anybody on the panel? I think I have heard that over again. It 
is my understanding in the March 2016 Gulf of Mexico planning 
area sale, more than 69,000 square miles were offered for 
lease, and about 1,000, 1,084 of that offering actually 
received bids. So, the question is, we are talking about having 
approximately over 1,000 square miles that actually received 
bids. My final question is, Dr. Bruno, does it make sense to 
establish these protected buffer areas around sensitive and 
productive ocean environments, like the coral reefs at Flower 
Garden Banks?
    Dr. Bruno. I absolutely think it does, and one thing we 
have not talked about is what is there. On the Flower Garden 
Banks in the existing reserves, we have the highest coral cover 
reefs of the entire Caribbean. The live coral coverage there is 
about 60 to 70 percent; the Caribbean average is about 15 
percent; in the Florida Keys it is about 4 percent. So, these 
are extraordinary reefs and we have a number of endangered 
corals living out there. We envision these reefs as really seed 
stock for replenishing our reefs in Florida and Puerto Rico. 
They have immense ecological value.
    Mr. Lowenthal. Thank you. I yield back, Mr. Chair.
    Mr. Webster. The Chair recognizes Mr. Bishop for a motion.
    Mr. Bishop. I lied. I do have another UC to submit to the 
record. These are the letters that the mayor from New Bedford 
was going to introduce if he were able to be here. They are 
from the fishermen who actually live in that area and know what 
they are talking about.
    Mr. Webster. Without objection, so ordered and approved.

    [The information follows:]

        National Coalition for Fishing Communities,
                                             Washington, DC

                                                     March 14, 2017

Hon. Rob Bishop, Chairman,
Hon. Raul M. Grijalva, Ranking Member,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Chairman Bishop and Ranking Member Grijalva:

    Thank you for holding today's important hearing on marine protected 
areas and monuments.
    Since 2014, the creation and expansion of marine monuments by 
executive action has been a primary concern of the commercial fishing 
industry and the National Coalition for Fishing Communities (NCFC). The 
NCFC was created by Saving Seafood in 2015 as a partnership among 
dozens of fishing and seafood industry organizations and businesses to 
elevate the voices of fishermen across the country in support of their 
communities. Across the nation, we are represented in Congress by 
Democrats and Republicans alike.
    Our coalition was formed in part because well-funded, well-
coordinated non-government organizations claiming to speak for 
fishermen, have frequently drowned out the actual voices of fishing 
communities, hurting our ability to effectively communicate to 
regulators, lawmakers and the public. NCFC members represent key 
commercial fisheries, across the nation including Atlantic sea scallop, 
red crab, lobster, tuna, swordfish and squid.
    NCFC members from New England and the Mid-Atlantic to Florida, 
California, the Pacific Northwest and Hawaii have all united in 
opposition to the unilateral designation of marine monuments through 
the Antiquities Act. Fishermen have made it clear that the management 
decisions that affect their livelihoods should be made through 
democratic, science-driven processes that encourage stakeholder 
engagement.
    The fishing industry cares deeply about protecting the marine 
ecosystems that provide for and sustain fishing families, but there is 
a right way and a wrong way to do it. Management decisions through the 
eight regional fisheries management councils created by the Magnuson-
Stevens Act already require compliance with a wide range of substantive 
legal requirements, including the Administrative Procedure Act, the 
National Environmental Policy Act, the Regulatory Flexibility Act, the 
Marine Mammal Protection Act, the Endangered Species Act, and the 
Unfunded Mandates Act.
    The Council process allows for stakeholders, scientists, and 
concerned citizens to review and debate policy decisions in a 
transparent manner. In contrast, the Antiquities Act authorizes the 
president to take away public areas and public resources with no public 
input. Using executive authority, the President can close any federal 
lands and waters in an opaque, top-down process that too often excludes 
the very people who would be most affected.
    Ill-considered monuments have already taken their toll on America's 
coastal communities. In New England, the recently designated, 5,000 
square-mile Northeast Canyons and Seamounts Marine National Monument 
ejected red crab and trawl fishermen with little notice. Pelagic 
fisheries, including swordfish and tuna, have been needlessly excluded 
from the monument area despite the fact that their fishing activities 
have no impact on the features the monument is meant to protect.
    This action was taken with no formal public hearings, cost-benefit 
analyses, or input from affected constituents, and despite no 
compelling reason or threat to marine resources. Fish stocks in the 
monument area were healthy, and the areas were still considered 
``pristine'' after 40 years of fishing activity.
    Industry leaders estimate the financial impact on the lobster, 
crab, squid, mackerel, and butterfish fisheries at approximately $30 
million directly, with $100 million in indirect impacts. Additionally, 
the monument closure forces fishing effort into other waters inhabited 
by endangered right whales, and forces large vessels into competition 
with inshore small boat fisheries.
    Mid-Atlantic fisheries have also been severely impacted by the 
monument designation. One fishing boat owner in Montauk, New York 
estimates an annual loss to his business of 15 percent of whiting and 
squid landings, 25 percent of butterfish landings, and 10 percent of 
tilefish landings, totaling over $400,000 a year in value. In any given 
year, this figure could be significantly higher.
    NCFC members continue to fear the expansion of previously created 
monuments. In Hawaii, the Papahanaumokuakea Marine National Monument 
was expanded last year into the then-largest marine protected area in 
the world. Combined with the effects of the Pacific Remote Islands 
Marine National Monument, the fourth largest marine protected area in 
the world, Hawaii longline fishermen are now banned from over 60 
percent of our Pacific waters.
    Reducing access to traditionally important fishing grounds 
threatens Hawaii's food security, as the fishing industry is the 
state's largest domestic food producer. It is also damaging to Hawaii's 
economy, where the 145 boats of the longline fishery support hundreds 
of jobs directly and thousands of jobs in related sectors. These 
fishermen are now being pushed further into international waters, often 
in competition with foreign fishermen, making it more difficult to 
support domestic demand for responsibly sourced seafood.
    On the West Coast, a proposal last year would have declared 
virtually all offshore seamounts, ridges and banks off the coast of 
California as monuments, and would have closed those areas to 
commercial fishing. These proposals were drafted and advanced behind 
closed doors with little analysis or public input. The areas marked for 
closure are critically important for many fisheries, including tuna, 
swordfish, rockfish, spiny lobster, sea urchins, white seabass, and 
coastal pelagic species such as mackerels, bonito, and market squid.
    While there have not been specific marine monument proposals in the 
South Atlantic, fishermen and seafood industry groups came together to 
reject the proposed Eubalaena Oculina National Marine Sanctuary in 
2015. These groups pointed out that federal laws already existed to 
preserve the resources the sanctuary aimed to protect, and expressed 
their concern that a sanctuary would have adverse effects on Florida's 
fishing and tourism industries.
    Alternatively, the fishing industry has worked with fisheries 
regulators to achieve remarkable conservation successes. Just last 
December, the Mid-Atlantic Council and NOAA Fisheries designated the 
Frank R. Lautenberg Deep-Sea Coral Protection Area, which prohibits 
most types of bottom-tending fishing gear in a 38,000 square-mile 
offshore area. Importantly, this action was taken in collaboration with 
the fishing industry in a process that brought together fishermen, 
scientists, and regulators.
    In light of the economic and cultural harm resulting from ever-
expanding marine monuments on America's coastal communities, we hope 
that Congress will work together, across party lines, to reform the 
monument and sanctuary designation processes, ensuring they do not 
continue to harm our nation's hardworking fishermen.

            Respectfully Submitted,

        David Borden, Ex. Director,   Diane Pleschner-Steele, Ex. 
                                      Director,
        Atlantic Offshore 
        Lobstermen's Association      California Wetfish Producers 
                                      Association

        Jim Gutowski, President,      Greg DiDomenico, Exec. Director,
        Fisheries Survival Fund       Garden State Seafood Association

        Sean Martin, Exec. 
        Director,                     Bonnie Brady, Exec. Director,
        Hawaii Longline Association   Long Island Commercial Fishing 
                                      Association

        Robert Vanasse, Exec. 
        Director,                     Jerry Schill,Exec. Director,
        Menhaden Fisheries 
        Coalition                     North Carolina Fisheries 
                                      Association

        Bob Jones, Exec. Director,    Lori Steele, Exec. Director,
        Southeastern Fisheries 
        Association                   West Coast Seafood Processors 
                                      Association

        Wayne Heikkila. Exec. 
        Director,
        Western Fishboat Owners 
        Association


                                 ______
                                 

        Atlantic Offshore Lobstermen's Association,
                                       Dover, New Hampshire

                                                     March 15, 2017

Hon. Rob Bishop, Chairman,
Hon. Raul M. Grijalva, Ranking Member,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Chairman Bishop and Ranking Member Grijalva,

    I write to you in my capacity as the Executive Director of the 
Atlantic Offshore Lobstermen's Association and member of the National 
Coalition for Fishing Communities regarding the Northeast Canyons and 
Seamounts Marine National Monument. Thank you and the committee members 
for your efforts to address the problems associated with the use of the 
Antiquities Act to designate protected areas in marine waters; we very 
much appreciate your efforts to make this a transparent process. Our 
Association and the Coalition did extensive work on this issue with the 
prior Administration, attempting to mitigate the negative impacts to 
the fishing industry. Several of our members also participated in your 
hearing with Mayor Mitchell in New Bedford, Massachusetts and had an 
opportunity to talk to you directly.
    For over a year, members of the offshore fishing industry worked 
tirelessly with State personnel, Governors' offices, Congressional 
offices, Mayors in major ports, and others to dissuade the prior 
Administration from closing vast areas in the Atlantic to commercial 
fishing. In our collective view, there was never a compelling reason or 
threat to the marine resources of the Atlantic that warranted the use 
of the Antiquities Act. However, with the mere stroke of a pen, 
President Obama closed approximately 5,000 square miles to fishing, 
immediately ejecting the trawl fishery, with a near-term phase out of 
other industries. This action was taken without formal public hearings, 
without cost benefit analyses, without input from the most affected 
constituents, and counter to the spirit of the open government 
initiatives that the former President himself advocated. Although 
select leaders in the fishing industry had limited access to members of 
the White House staff, the public and fishing industry were, by and 
large, excluded. At no time prior to the Presidential announcement did 
we receive a written proposal detailing the specifics of the Monument 
designation and, further, the lack of transparency was appalling.
    To assert my above comments, I herein submit to the March 15, 2017 
committee hearing record copies of ten letters that our Association's 
members, staff, and related groups submitted to the prior 
Administration. These letters were submitted in the spirit of 
cooperation, with the intent of allowing the Monument process to 
continue, while reducing impacts on the environment and fishing 
industry. Our collective objections to the Monument designation process 
via the Antiquities Act, can be summarized as follows:

    <bullet> There were no immediate threats to the marine resources 
            that warranted the use of the Antiquities Act. Most 
            documented corals are deeper than the areas fished and 
            there are no active proposals for oil, gas, or mineral 
            exploration. Monument supporters called the closure area 
            ``pristine'' despite 40 years of fishing.

    <bullet> Jurisdiction to manage fisheries in the Monument area is 
            already contained in the Magnuson-Stevens Fishery 
            Conservation and Management Act and Atlantic Coastal 
            Fisheries Cooperative Management Act, promulgated by 
            regional Fishery Councils/Commission and NOAA Fisheries. 
            Those acts are subject to impact analyses (NEPA) and 
            extensive public input. It is our belief that the advocates 
            for the Monument proposal specifically used the dated 
            requirements in the Antiquities Act to circumvent the 
            public process, and curtail public input on a key issue 
            affecting thousands of individuals, as we do not believe 
            that the action would have been approved following the 
            Magnuson-Stevens Act requirements.

    <bullet> U.S. marine Economic Exclusive Zones are not land owned or 
            controlled by the United States and should, therefore, fall 
            outside of Antiquities Act authority.

    <bullet> Various fishing interests provided detailed and highly 
            confidential information to the White House Office of 
            Environmental Quality in order to document the negative 
            impacts on the fishing industry. We offered a range of 
            different alternatives to the White House that would have 
            avoided negative impacts, but none were adopted. This 
            included a proposal for a closure 5.5 times larger than the 
            one designated, which would have protected deep water coral 
            from the U.S./Canadian border to the Frank R. Lautenberg 
            Deep-Sea Coral Protection Area in the Mid-Atlantic.

    <bullet> Economic impacts were not analyzed. Using confidential 
            industry information we estimate financial impacts on the 
            lobster, crab, squid, mackerel and butterfish fisheries to 
            be approximately $30 million directly and $100 million when 
            multiplied across the economy.

    <bullet> Habitat and social impacts were not analyzed. The Monument 
            closure forces fishing effort into neighboring shallower 
            waters that are inhabited by endangered right whales and 
            forces larger vessels inshore, competing with small, 
            community based, day boat fisheries.

    Similarly themed correspondences were additionally submitted to the 
Administration by representatives of local, state, and regional 
governments and organizations.
    In conclusion, we ask that you and your committee update the 
requirements of the Antiquities Act, and at a minimum formulate 
recommendations which require future Administrations to follow an open 
and transparent process. Thank you for the opportunity to comment.

            Sincerely,

                                              David Borden,
                                                Executive Director.
Attachments

                                 *****

The following documents were submitted as attachments to this letter. 
These documents are part of the hearing record and are being retained 
in the Committee's official files:

    --Atlantic Offshore Lobstermen's Association, September 15, 2015 
            Letter to John Bullard, Regional Administrator, NOAA NMFS 
            GARFO

    --Massachusetts Lobstermen's Association, Inc., September 18, 2015 
            Letter to President Barack Obama

    --Massachusetts Lobstermen's Association, Inc., October 23, 2015 
            Letter to President Barack Obama

    --Rhode Island Department of Environmental Management, February 2, 
            2016 Letter to President Barack Obama

    --Atlantic States Marine Fisheries Commission, May 9, 2016 Letter 
            to President Barack Obama

    --Atlantic Offshore Lobstermen's Association, May 18, 2016 Letter 
            to President Barack Obama

    --Mataronas Lobster Co., Inc., August 10, 2016 Letter to U.S. 
            Congress & U.S. Senate

    --Kelley Drye & Warren LLP, September 14, 2016 Letter to Christina 
            W. Goldfuss, Managing Director, Council on Environmental 
            Quality

    --Peter Brown, commercial offshore lobsterman, August 25, 2016 
            Letter to President Barack Obama

    --Palombo Fishing Corp., September 12, 2016 Letter to President 
            Barack Obama

                                 ______
                                 

                       Hawaii Longline Association,
                                           Honolulu, Hawaii

Hon. Doug Lamborn, Chairman,
House Subcommittee on Water, Power and Oceans,
Washington, DC 20515.

    Dear Mr. Lamborn:

    My name is Sean Martin. I am the President of the Hawaii Longline 
Association (HLA). I ask that the Subcommittee consider these comments 
on behalf of the longline fishermen of Hawaii and the associated 
industries and fish consumers in Hawaii as you assess possible 
legislation concerning the National Marine Monuments in the Pacific 
Ocean.
    Recommendation: The HLA maintains that establishment of the large 
national marine monuments in the U.S. waters around Pacific Islands (a) 
is scientifically unsupportable; (b) is unnecessary; (c) and is harmful 
to U.S. fishing interests. If the monument designations cannot be 
reversed, we recommend that the prohibition of commercial fishing in 
the monuments be rescinded as long as the fishing is consistent with 
U.S. laws and regulations.
    HLA and the Fishery: HLA was formed to provide an organization to 
work with the U.S. Government and others to ensure that regulations 
affecting the Hawaii longline fishery would be effective and 
enforceable while imposing the least burden necessary to achieve 
conservation needs. HLA has collaborated in the development of 
regulations and conducting research into such areas as gear 
modifications to protect special species such as sea turtles, seabirds, 
and marine mammals. We are proud of our efforts which have resulted in 
the Hawaii longline fishery being a model fishery for the Pacific. It 
may be the most comprehensively managed fishery in the Pacific. The 
local markets are dependent on our fleet. We have 150 active vessels, 
and we land about $100 million worth of fish each year, with a total 
economic impact of 2,350 jobs and several hundred million dollars in 
related seafood industry income. The fishery supports jobs on fishing 
vessels, on the docks, at suppliers, and in the fish wholesale and 
distributor markets.
    HLA members recognize the need for fishery regulations. The primary 
species we target are tuna and associated species that are highly 
migratory. No single nation can control fishing sufficiently to ensure 
sustainability of the stocks or to adequately control adverse impacts 
on non-fish species. We support management measures that are based on 
science and are adopted in an open, transparent decision-making 
process.
    The Hawaii longline fishery is managed under two primary sets of 
regulations: regulations developed by the Western Pacific Regional 
Fishery Management Council under the Magnuson Fishery Conservation and 
Management Act, and regulations to implement conservation and 
management measures by two regional fishery management organizations--
the Inter-American Tropical Tuna Commission and the Western and Central 
Pacific Fisheries Commissions. Council regulations are developed in a 
fully open and transparent manner with many opportunities for industry 
and public inputs. In the international arena, we appreciate that the 
U.S. Government's process is also very open and includes advisory 
committees of U.S. fishing and non-fishing interests and frequent 
meetings of U.S. delegations at the commissions' meetings.

    We oppose the prohibition of commercial fishing in the Monuments 
because:

  1.  It Is Not Scientifically Supportable: There is no science-based 
            analysis demonstrating that establishment of the Monuments 
            will in any way conserve or protect fish stocks from any 
            real threats. The waters and fish and other animals in 
            these Monuments have not been adversely affected by 
            fishing. These are pristine waters that retain all the 
            characteristics of preserves even as fishing has been going 
            on for years. The fishing that occurred was surface 
            fishing; there was no impact on bottom corals and reefs. 
            One of the claims of the supporters of the monuments has 
            been that the monuments provide a ``refuge'' for tuna and 
            other migratory species; that is, those fish won't be 
            caught in the U.S. waters and this might somehow help 
            conserve the species. This is a fanciful and illogical 
            argument with no scientific basis. Tuna and associated 
            species typically travel long distances in their migrations 
            across the ocean or parts of the ocean. They are not 
            ``residents'' dependent on U.S. waters for spawning or 
            growth to reproductive size. They are likely to be caught 
            on the high seas if they are not caught in U.S. waters.

  2.  It Is Not Necessary: HLA believes that a principle of government 
            should be to take action where existing laws and measures 
            have failed. This is not such a situation. There are no 
            ongoing activities or contemplated activities that are 
            threatening any of the living or non-living resources in 
            the Monuments. There is no ocean mining, there are no 
            activities adversely affecting water or air quality, and 
            there are no activities that would reduce the ocean's 
            ability to absorb carbon dioxide or otherwise buffer 
            against climate change. The only commercial activity in the 
            Monuments has been fishing. This fishing was only by U.S. 
            vessels (foreign fishing is prohibited in U.S. waters) and 
            was fully controlled under existing laws and regulations, 
            including the Magnuson Act, the Endangered Species Act, the 
            Marine Mammal Act, the Migratory Bird Treaty Act, and 
            international agreements. It is noteworthy that U.S. 
            regulations in this regard are far more stringent than most 
            foreign regulations, with special controls to protect sea 
            turtles, seabirds, and marine mammals. No other long line 
            fleet--and there are several, including large Asian fleets 
            and smaller, Pacific island based fleets--has comparable 
            controls, and it is questionable whether all nations pursue 
            actual enforcement to the degree that the U.S. does. 
            Further, there are existing laws and institutions to deal 
            with any threats that were to arise in the future.

  3.  It Is Harmful to U.S. Fishing Interests: Hawaii vessels depend on 
            U.S. waters and the adjacent high seas in the Pacific for 
            access to tuna and associated species. In fact, the 
            establishment of the U.S. exclusive economic zone, or EEZ 
            (waters out to 200-mile from shore). was largely driven by 
            the need to protect those U.S. waters and U.S. fisheries 
            from excessive foreign fishing and to provide waters in 
            which U.S. fisheries would operate alone, subject to 
            regulations under the Magnuson Act and other applicable 
            law. Simply put, the intent was to put ``America first'' in 
            these waters. It simply does not make sense then to force 
            U.S. fishers out of U.S. waters and into more intensely 
            fished high seas. HLA members operate in a very competitive 
            environment. There are many nations fishing for tuna in the 
            Pacific. HLA members provide almost all the fresh tuna and 
            associated species in the market in Hawaii. To the extent 
            the Hawaii fishery is limited, the market is vulnerable to 
            takeover by foreign sources, whose vessels have far less 
            regard for controls to protect fish stocks and non-fish 
            stocks like turtles, mammals, and birds. Establishment of 
            the Monuments means that waters historically accounting for 
            8 percent of the catch by the Hawaii longline fishery are 
            now closed as part of the Papahanuamakuakea Monument, while 
            waters accounting for another 5-10% of catch are closed 
            around remote Pacific Islands (e.g., Howland-Baker, 
            Palmyra). This has been very disruptive for this fishery.

    There also have been adverse impacts on U.S. territories, as 
monument designations have seriously reduced the potential for fishery 
development in U.S. territories like American Samoa, Guam, and the 
Northern Mariana Islands. These U.S. territories have already been 
disadvantaged in the past by lack of assistance from the U.S. 
Government, and now monument designations have put large areas of ocean 
off limits to U.S. fishing with no conservation benefit. This is truly 
unfair to the territories.
    In closing, HLA recommends that the prohibition of fishing in the 
monuments be rescinded so that these waters remain open to U.S. 
fisheries as long as they are consistent with established laws and 
regulations of the U.S.
    HLA appreciates your consideration of these comments. Please feel 
free to contact me if you have questions or would like additional 
information.

            Sincerely,

                                               Sean Martin,
                                                         President.

                                 ______
                                 

              North Carolina Fisheries Association,
                                   New Bern, North Carolina

                                                     March 13, 2017

Hon. Rob Bishop, Chairman,
House Committee on Natural Resources,
1324 Longworth House Office Building,
Washington, DC 20515.

Subject: Marine National Monuments

    The North Carolina Fisheries Association certainly appreciates the 
ability of significant natural, cultural, or scientific features to 
receive federal protections as appropriate. Staples of coastal 
commerce, fishing and seafood production are also core cultural 
elements of coastal and national heritage, going back over five 
generations for many families. Commercial fishermen established our 
association in 1952 to serve fishing families by protecting their 
heritage and promoting seafood. To achieve this, the association 
actively engages the scientific and management processes on behalf of 
the industry and supports many outreach and education projects. Over 
six decades later, we still believe the commercial fishing industry 
begins and ends with families--from those who harvest seafood to those 
who enjoy it. We are committed to presenting an accurate portrait of 
the industry and the people who sustain it.
    Although we are a commercial fisheries trade organization that 
advocates for sustainable access for our fishermen to their traditional 
fishing grounds, we advocate for this access by all who wish to ply our 
state and national waters, whether it be for commerce, sustenance or 
recreation. Efforts to expand Marine National Monuments substantially 
impact our access to traditional fishing grounds that are presently and 
sustainably managed through multiple councils, commissions, and 
agencies. Through these Council processes, which include extensive 
collaboration with multiple industries and entities, Fisheries 
Management Plans are developed to ensure our shared resources are 
sustained for future generations. Furthermore, they are managed 
utilizing the best available science conducted by some of the world's 
leading experts in their field. These efforts may not always yield the 
results desired by each group, but it is the most comprehensive process 
in considering every aspect of sustainably managing these resources.
    It is unfortunate however, that the powers used to enact federal 
protections can overwrite existing efforts, displacing other culturally 
and economically significant features and activities. Additionally, it 
disregards H.R. 1335, which delineates the Magnuson-Stevens Act as the 
controlling statute for our marine resources. This is the case of the 
Marine National Monument nominations of recent, as the process is 
ultimately and simply, an executive decision.
    Unlike protecting important shipwrecks and other historical 
features, the recent nominations have included hundreds of thousands of 
square miles of productive marine waters that are already actively 
managed through deliberative and scientific decision-making processes 
to ensure sustainability. The expansion of the Papahanaumokuakea 
monument in Hawaii has already given much concern to the people that 
have fished the Hawaiian waters for multiple generations, yet had no 
voice in the process that now prohibits their sustainable fishing 
activities. The proposed monument in California has also left fishermen 
in the dark during discussions and planning, prompting the Pacific 
Marine Fisheries Management Council to pen a letter to then President 
Obama. In this letter, they stressed the importance of using a 
transparent process, taking into consideration the social and economic 
impacts, and the fact that their waters, as well as all U.S. waters are 
sustainably managed through these council processes as mandated by 
federal law. Now New England has now been the subject of the same 
process, or lack of. The Northeast Canyons and Seamounts Marine 
National Monument, designated last September, has left stakeholders no 
other choice than to sue for relief. While these designations 
immediately impact fishermen, they also impact the economies of those 
areas reliant on them.
    Although this mechanism is executive, early efforts heavily 
involved the public, and have been used prudently and sparingly. 
Unfortunately, the previous administration took full advantage of this 
power, relying very little on the public to gage the impacts, and 
disregarded advice provided by the Fishery Management Councils in each 
region. The administration supported multiple efforts to identify these 
large areas of traditional fishing grounds that are now illegal for 
fishermen to fish.
    While it is to be expected that fishermen will from time to time 
reduce their efforts to maintain sustainability, they never expected 
that they would be closed out of a traditional industry for no reason 
at all. The marine resources in our great country including, those 
areas mentioned previously, are already managed, and managed heavily. 
There is no basis to close them out, nor to do so with so little 
sensitivity as to the impact of those that will surely be affected.
    It is important to consider the progress made by the Mid-Atlantic 
Fishery Management Council. In October 2015, the Council successfully 
mediated a multi-stakeholder Magnuson-Stevens Act coral habitat 
protection amendment which resulted in the protection of approximately 
38,000 square miles of coral habitat in 13 deep water canyons in the 
region. This considerate approach included input from fishermen, 
scientists, conservationists, and regulators to discuss the goals of 
the amendment, and how they could be achieved with as little negative 
impact as possible. Unfortunately, this agreed upon action is now the 
target of formal Sanctuary nomination and status by other Non-
Governmental Organizations to completely eliminate fishermen's access.
    The Antiquities Act does not take into consideration scientific or 
economic analyses, or existing social and cultural impacts. It is 
simply the stroke of a pen that initiates this information void 
process, which is commonly based on pressure from well-funded 
environmental groups that are aware that consideration of these impacts 
are not necessary. Unfortunately, the public, including the fishing 
community, is directly affected, and has no voice.
    The intent of the Antiquities Act may be pure, but without the 
advice of leading experts researching these waters, without weighing 
the impacts of the fishing industry who has vast experience to offer 
and will ultimately suffer the impacts, and without the proven process 
to combine all aspects into an effective, yet sensitive tool, efforts 
will be misguided and afford insufficient protections while pointlessly 
destroying an industry. We strongly encourage you to adopt the approach 
employed by the Magnuson-Stevens Act, and further outlined by the 
example set by the Mid-Atlantic Fisheries Management Council.

            Sincerely,

                                              Jerry Schill,
                                                         President.

                                 ______
                                 

    Mr. Webster. I would like to thank the witnesses for being 
here and for their valuable testimony. Members of the 
Subcommittee and our two accepted guests are allowed to submit 
other questions over the next 3 days according to Committee 
Rule 3(o). Members of the Committee also are reminded that the 
hearing record will be held open for 10 business days to get 
the responses to those questions.
    If there is no further business to come before the 
Committee, without objection, the Subcommittee stands 
adjourned.

    [Whereupon, at 11:26 a.m., the Subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                                  March 3, 2017

Hon. Donald J. Trump, President,
The White House,
1600 Pennsylvania Avenue NW,
Washington, DC 20500.

    Dear Mr. President:

    We, the Governors of the U.S. Territories of American Samoa and 
Guam and the U.S. Commonwealth of Northern Mariana Islands, humbly 
request that you use executive authority under the Antiquities Act of 
1906 to remove the fishing provisions applicable to the Marine National 
Monuments in federal and our island jurisdictions.
    Our island communities depend on the ocean for food security and 
economic opportunities. Our Samoan, Chamorro, and Carolinian cultures 
are interwoven with the marine environment and fishing. The monument 
fishing restrictions are unnecessary and impede our socioeconomic and 
cultural stability. The promises of previous administrations and 
environmental organizations of monument co-management and revenue 
generation have not been realized.
    Our islands contribute a significant amount of land and water for 
military training and among the highest per capita U.S. Armed Forces 
personnel and military casualties, reflecting our resolute American 
patriotism. Many of our people have not returned from harsh and distant 
battlegrounds, providing the ultimate sacrifice for our great country.
    We trust you will demonstrate your great leadership on this 
pressing issue and do what is right for our people and the Nation. 
Please return American fishermen to U.S. waters and remove the monument 
fishing prohibitions.

            Respectfully,

                                            Eddie B. Calvo,
                                                  Governor of Guam.

                                         Lolo L. M. Moliga,
                                        Governor of American Samoa.

                                        Ralph D. G. Torres,
                                                  Governor of CNMI.

Attachments
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


* The Coral Reef Ecosystem Regulatory Area excluded the portion of 
  EEZ waters 0-3 nautical miles (nm) around the CNMI. The Bottomfish 
Management Subarea was divided in the CNMI Inshore Area, which was that 
portion of the EEZ shoreward of 3 nm of the shoreline of CNMI, and the 
 CNMI Offshore Area, which was that portion of the EEZ seaward of 3 nm 
                        from the CNMI shoreline.
                        
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 

                 Outcomes Statement and Recommendations
                     Council Coordination Committee
                         MARRIOTT BEACH RESORT
                          ST. THOMAS, U.S.V.I.
                            MAY 24-26, 2016
                       Marine National Monuments

The Council Coordination Committee (CCC) notes the successes of the 
Magnuson-Stevens Fishery Conservation and Management Act in managing 
fishery resources of the United States as well as the marine ecosystems 
of the United States Exclusive Economic Zone (EEZ) and the CCC 
recognizes that there have been a number of proposals regarding the 
designation of new, or the expansion of existing, Marine National 
Monuments within the U.S. EEZ.

Whereas, the Magnuson-Stevens Fishery Conservation and Management Act 
(Magnuson-Stevens Act) was originally passed by Congress in 1976 for 
the specific purpose of sustainably managing the nation's fishery 
resources to provide a food source, recreational opportunities and 
livelihoods for the people of the United States;

Whereas Congress, in passing the Magnuson-Stevens Act, found that 
``Commercial and recreational fishing constitutes a major source of 
employment and contributes significantly to the economy of the 
Nation.''

Whereas, the Magnuson-Stevens Act created eight Regional Fishery 
Management Councils that are charged with managing, conserving, and 
utilizing fishery resources as well as protecting essential fisheries 
habitat, minimizing bycatch, and protecting listed species within the 
United States Exclusive Economic Zone;

Whereas, through the implementation of the Magnuson-Stevens Act and 
through the actions of the Regional Fishery Management Councils, the 
United States has become a global leader in the successful management 
of its fishery resources and associated ecosystems in a proactive 
sustainable manner;

Whereas, the Regional Fishery Management Councils and the National 
Marine Fisheries Service have made great strides in managing fisheries 
in an ecosystem-based manner;

Whereas, the Magnuson-Stevens Act requires that fisheries management 
actions be developed through a public process, in a transparent manner, 
and based on the best scientific information available;

Whereas, the Regional Fisheries Management Councils and the National 
Marine Fisheries Service manage fisheries stocks throughout their range 
and concerns have been raised that designations such as marine 
monuments may disrupt the ability of the Councils to continue to manage 
fisheries throughout their range and in an ecosystem-based manner;

Whereas, the designation process of marine national monuments under the 
Antiquities Act of 1906 does not explicitly require a robust public 
process or that decisions be based on a science-based environmental 
analyses, and does not require fishery management or conservation as an 
objective;

Whereas, the Regional Fishery Management Councils have a strong history 
of implementing spatial habitat and fisheries conservation measures 
(over 1000 individual spatial management measures) in a public, 
transparent, science-based manner through the Magnuson-Stevens Act.

Whereas, concern has been raised that decisions to close areas of the 
U.S. EEZ, through statutory authorities such as through the Antiquities 
Act of 1906, may not take into account requirements to achieve optimum 
yield (OY) from the Nation's fishery resources, may negatively affect 
domestic fishing jobs, recreational opportunities and undermine efforts 
by the Regional Fishery Management Councils to develop and implement 
ecosystem-based management;

Therefore be it resolved, the CCC reiterates its support for the 
public, transparent, science-based process and management required by 
the Magnuson-Stevens Fishery Conservation and Management Act.

Therefore be it further resolved, the CCC recommends that if any 
designations are made in the marine environment under authorities such 
as the Antiquities Act of 1906 that fisheries management in the U.S. 
EEZ waters continue to be developed, analyzed and implemented through 
the public process of the Magnuson-Stevens Fishery Conservation and 
Management Act.

        Carlos Farchette, Chair,      Dan Hull, Chair,
        Caribbean Fishery 
        Management Council            North Pacific Fishery Management 
                                      Council

        Kevin Anson, Chair,           Dorothy Lowman, Chair,
        Gulf of Mexico Fishery 
        Management Council            Pacific Fishery Management 
                                      Council

        Richard Robins, Chair,        Michelle Duval, Chair,
        Mid-Atlantic Fishery 
        Management Council            South Atlantic Fishery Management 
                                      Council

        E.F. ``Terry'' Stockwell 
        III, Chair,                   Edwin Ebisui Jr., Chair,
        New England Fishery 
        Management Council            Western Pacific Fishery 
                                      Management Council

                                 ______
                                 

                     Seafood Harvesters of America,
                                        Arlington, Virginia

                                                     March 13, 2017

Hon. Rob Bishop, Chairman,
House Committee on Natural Resources,
1324 Longworth House Office Building,
Washington, DC 20515.

    Dear Chairman Bishop:

    On behalf of the Seafood Harvesters of America, we want to express 
our appreciation for your leadership in examining the creation and 
management of marine monuments and sanctuaries. The extensive use of 
the Antiquities Act has unnecessarily impacted the commercial fishing 
industry, which has otherwise willingly adopted responsible approaches 
to prevent overfishing.
    The Harvesters represent over 3,900 small businesses, 19,000 
thousand jobs, almost $500 million in income and $1.25 billion in 
economic output. Our members are privileged to go to sea every day from 
the Gulf of Alaska, to the Gulf of Mexico and the Gulf of Maine 
bringing to market healthy, domestic, sustainable seafood. We honor, 
depend upon and live with accountability in our fisheries and 
transparency in the regulatory process. Through the Magnuson-Stevens 
Act (MSA), our fisheries have improved dramatically as the commercial 
fishing industry has become more responsible, accountable, and 
efficient.
    The MSA allows for identification of Essential Fish Habitat (EFH) 
and regulatory mechanisms for preventing fishing in areas designated as 
essential. This process had been completed through the New England 
Fishery Management Council, which would have designated extensive areas 
for EFH protection along the Atlantic Seaboard, from the Carolinas to 
the Canadian border. This collaborative decade-long process that 
incorporated the best science available, stakeholder engagement and 
featured transparency was overridden by the establishment of the 
Northeast Canyons and Seamounts Marine National Monument. With the 
stroke of a pen, President Obama unnecessarily took fishermen off the 
water across vast stretches of traditional fishing grounds, threatening 
local economies, increasing our seafood deficit, and ignoring the 
federal fishery management process.
    While management decisions to reduce quotas or restrict fishing are 
always contentious, we willfully engage in the process and abide by the 
decisions made through the regional council process as it has worked to 
prevent overfishing, rebuilt dozens of fish stocks and provided greater 
regulatory and economic certainty for our industry. Consequently, we 
believe that fishery decisions should continue to be managed through 
the MSA-established processes and not be subject to restrictions 
through the monument designation process.
    We look forward to working with you to ensure that we have a 
sustainable, renewable and a stable seafood supply that is managed with 
regulatory certainty and not subject to politically driven executive 
action.

            Sincerely,

        Chris Brown, President        Kevin Wheeler, Executive Director

                                 ______
                                 

       Western Pacific Regional Fishery Management 
                                           Council,
                                           Honolulu, Hawaii

                                                  February 23, 2017

The President,
The White House,
1600 Pennsylvania Avenue NW,
Washington, DC 20500.

    Dear Mr. President:

    The purpose of this letter is to inform you of the impacts American 
fishing industries, seafood consumers and indigenous communities face 
as result of proclamations establishing Marine National Monuments (MNM) 
in the Western Pacific Region. Most recent in our region was President 
Obama's proclamation of August 26, 2016, massively expanding the 
Papahanaumokuakea Marine National Monument (PMNM) in the Northwestern 
Hawaiian Islands. The Western Pacific Regional Fishery Management 
Council (Council) was one of many organizations and individuals who 
expressed strong reservations over the scientific and empirical basis 
for this monument expansion and other MNMs in the U.S. exclusive 
economic zone (EEZ) waters. Together, these large marine protected 
areas prohibit American commercial fishing vessels from operating in 
half of the U.S. EEZ waters in the Western and Central Pacific Ocean.

    Impacts to U.S. Commercial Fishery Landings: The Hawaii longline 
fishery lands $110 million of fresh (not frozen) fish, consistently 
ranking the Port of Honolulu as one of America's top 10 fishing ports 
in value landed. The PMNM expansion shuts this fishery out of an area 
that is twice the size of Texas. Located 50 to 200 miles from shore, 
this expanded monument area has historically produced 8 percent of the 
bigeye tuna and 11 percent of the swordfish landed by the fishery. 
Likewise, the expansion of the Pacific Remote Islands (PRI) MNM by 
Obama closed fishing grounds comprising 12 percent of the Hawaii 
longline fishery's landings. About 20 percent of the productivity of 
the Hawaii longline industry has been needlessly compromised by MNM 
expansions, executed by the Obama Administration under the Antiquities 
Act of 1906. These monuments also closed fisheries that produced half 
of the locally landed bottomfish and a lobster fishery. The closure of 
fishing grounds in the PRI and the Rose Atoll MNMs severely impacted 
the U.S. purse-seine and American Samoa-based longline fleets. The area 
of the PRIMNM formed 10 percent of the U.S. purse-seine fishing effort. 
The Rose Atoll MNM increased the area closed to American Samoa longline 
vessels by about 1,800 square nautical miles, an annual loss of about 
$237,000 of albacore tuna.

    Impacts to U.S. Commercial Fishing Industries: The loss of fishing 
grounds due to the MNMs will have an immediate and long-term effect on 
fishery participants, shore-side business and coastal communities that 
rely on the fishing industry. PMNM expansion has an estimated potential 
annual loss of more than $9 million to fishery support businesses 
(e.g., fuel and gear suppliers), $4.2 million in household income, and 
$500,000 to the State of Hawaii in tax revenue.\1\ The impacts to the 
U.S. purse-seine fleet have devastated the U.S. canneries in American 
Samoa, an industry that represents 52 percent of the territory's gross 
domestic product and is its largest private enterprise employer. 
Further, U.S. commercial fishing vessels will be displaced into the 
much reduced U.S. EEZ waters to compete with recreational and small 
boat fishermen or the high seas to compete with foreign fishermen from 
Asia, this at a time when the United Nations is being asked to close 30 
percent of the high seas to fishing.\2\
---------------------------------------------------------------------------
    \1\ National Marine Fisheries Service's Pacific Islands Fisheries 
Science Center presentation to the 168th Council, Oct 12-14, 2016, 
Honolulu.
    \2\ http://www.ipsnews.net/2016/03/un-begins-negotiations-on-
treaty-to-protect-marine-resources/

    National Food Security: Hawaii imports 90 percent of all the food 
it consumes. Among locally produced food, fishing ranks as the single 
largest food producer in the state. About 60 percent of the 
commercially caught fish consumed in Hawaii is imported and about 40 
percent is locally produced. Hawaii fisheries are also important to the 
nation, which depends on foreign imports for 90 percent of its seafood. 
The majority of the bigeye tuna (90 percent) and a substantial amount 
of the swordfish consumed in the continental United States are from the 
Hawaii fishery.\3\,\4\
---------------------------------------------------------------------------
    \3\ Fisheries of the United States 2015.
    \4\ 2015 Pelagic Stock Assessment Fishery Evaluation (SAFE) Report. 
Honolulu: Western Pacific Regional Fishery Management Council. http://
www.wpcouncil.org/wp-content/uploads/2015/04/2017-01-31_Final-2015-
SAFE-Report.pdf.

    Regulatory Duplication: The Obama Administration used the 
Antiquities Act to overlay no-take or very limited-take monuments in 
areas that were already designated as marine protected areas under the 
Magnuson-Stevens Fishery Conservation and Management Act (MSA) and 
which allowed sustainable commercial fishing. The MSA, the preeminent 
federal fishing law, ensures the prevention of overfishing while 
achieving optimum yield for the benefit of nation. The management 
measures under which these fisheries have operated have set standards 
that have been internationally adopted by regional fishery management 
organizations worldwide.\5\ The monuments do not add any fishery 
conservation benefits or climate change mitigation (the purported 
purpose of the establishment of the monuments), especially to highly 
mobile species such as tunas, billfish, and sharks. Instead the 
monuments weaken U.S. fisheries, U.S. interests, U.S. negotiations and 
U.S. competition in the Pacific.
---------------------------------------------------------------------------
    \5\ Western and Central Pacific Fisheries Commission, Inter-
American Tropical Tuna Commission, etc.

    Federal Cost: Creation of the four MNMs in the Western Pacific 
Region have increased administrative and monitoring burdens on the U.S. 
Coast Guard and other agencies that patrol these U.S. EEZ waters. The 
U.S. waters, now devoid of American commercial fishing vessels that 
served as a deterrent, are imperiled by encroaching foreign vessels. 
The establishment of the Marianas Trench MNM cost $10 million, and 
costs to establish the PMNM (2006) amounted to about $35 million for an 
area spanning 140,000 square miles.\6\ The expanded PMNM area is three 
times the size of the original PMNM area, i.e., an additional 443,000 
square miles. There is no known, publicly available cost and benefit 
analysis for the expanded PMNM; however, it is conceivable that the 
cost to establish the expanded MNM could reach more than $100 million.
---------------------------------------------------------------------------
    \6\ McCrea-Strub A et al. ``Understanding the cost of establishing 
marine protected areas.'' Marine Policy 35 (2011) 1-9.

    Council staff is available to provide additional information about 
the impacts of MNMs, which are utterly pointless and an affront to our 
---------------------------------------------------------------------------
nation's fisheries.

            Sincerely,

                                       Edwin A. Ebisui Jr.,
                                                             Chair.

                                          Kitty M. Simonds,
                                                Executive Director.
Attachment

                                 *****

        Impacts of Marine National Monument Fishing Prohibitions
                           February 18, 2017

MONUMENTS NOW COMPRISE ONE QUARTER OF THE ENTIRE U.S. EXCLUSIVE 
        ECONOMIC ZONE (1,184,000 square miles in the Western Pacific 
        and 4,913 square miles in the New England region)

    <bullet> 141,000 square miles with establishment of 
            Papahanaumokuakea Marine National Monument (MNM) in 2006 
            encompassing 0-50 nm around the Northwestern Hawaiian 
            Islands (NWHI) in 2006

    <bullet> 192,000 square miles with establishment of monuments in 
            2009 around encompassing 0-50 nm around Rose Atoll 
            (American Samoa), Pacific Remote Island Areas, and the 
            Marianas Trench MNMs

    <bullet> 408,000 square miles with expansion of monuments in 2014 
            of the Pacific Remote Islands (PRI) MNM, with boundaries 
            around some of the islands to the full extent of the U.S. 
            EEZ (0-200 nm around Wake, Johnston, Jarvis Islands).

    <bullet> 443,000 square miles with expansion of the NWHI monument 
            in 2016 to the full extent of the U.S. EEZ (0-200) around 
            two-thirds of U.S. waters around the Hawaii Archipelago

    <bullet> 4,913 square miles with establishment of the Northeast 
            Canyons MNM in 2016.

MONUMENT FISHING PROHIBITIONS COULD HAVE NEGATIVE IMPACTS OF MORE THAN 
        $69 MILLION ANNUALLY TO U.S. COMMERCIAL FISHERIES

    <bullet> $10 million in landings, $9 million to fishery support 
            businesses, $4.2 million in household income, and $500,000 
            in State of Hawaii tax revenue from NWHI monument expansion 
            area, which produced on average around 10% of the catch 
            harvested by the Hawaii longline fishery

    <bullet> $42 million in landings from expanded PRI monument, which 
            produced on average over 12% of the catch harvested by the 
            Hawaii longline fishery and about 10% of the catch from 
            U.S. purse seiners that historically delivered tuna local 
            canneries in American Samoa

    <bullet> $0.25 million from the Rose Atoll monument from reduced 
            fishing grounds to the American Samoa longline fleet in 
            U.S. waters around American Samoa

    <bullet> $1-2 million from Northeast Canyons MNM (Does not include 
            loss from tuna and offshore lobster fisheries)

    <bullet> PRI and Rose Atoll monuments were in part responsible for 
            the closure of one of American Samoa's two canneries in 
            December 2016 as a result of reduced supply of U.S. caught 
            tuna. The closure resulted in the loss of a thousand jobs. 
            The two canneries in American Samoa accounted for 52% of 
            the Territory's gross domestic product and are the 
            Territory's primary private employer.

MONUMENT FISHING PROHIBITIONS WEAKEN U.S. FISHERIES, INCREASE IMPORTS 
        AND JEOPARDIZE U.S. FOOD AND NATIONAL SECURITY

    <bullet> Monuments displace U.S. fishing fleets to international 
            waters where they must fish alongside and compete with 
            foreign fishing fleets

    <bullet> Displaced fishing to more distant international waters 
            increases trip costs and poses greater safety at sea risks

    <bullet> Deterrence of foreign fishing fleet encroachment in the 
            U.S. EEZ is compromised when U.S. commercial fishing 
            vessels are removed from a quarter of the U.S. EEZ now 
            designated as monuments

    <bullet> Weakened U.S. fisheries impact national food security and 
            foster increased imports. The U.S. already relies on 
            foreign imports for 90% of seafood it consumes

    <bullet> Displaced U.S. commercial fishing vessels could also 
            concentrate effort and increase potential gear conflicts in 
            the reduced areas of fishable U.S. waters that are also 
            fished by recreational and small boat fishermen

MONUMENT FISHING REGULATIONS CAUSE REGULATORY DUPLICATION AND LACK 
        CONSERVATION BENEFITS

    <bullet> NWHI monument overlay the Protected Species Zone 
            established under the MSA

    <bullet> PRI monument overlay the 0 to 300-feet depth no-take and 
            low-take zones established under the MSA and 0 to 3 mile 
            refuges established by the U.S. Fish & Wildlife Service in 
            many of the islands

    <bullet> Rose Atoll monument overlay the Large Vessel Prohibited 
            Area established under the MSA

    <bullet> Marianas Trench monument's Islands Unit overlay the 
            Commonwealth of the Northern Mariana Islands' conservation 
            zone

    <bullet> All coral reef, deep-reef slope, and pelagic ecosystems in 
            federal waters were subject to comprehensive fishery 
            ecosystem management regulations established under the MSA 
            prior to monument designation

    <bullet> Monuments and other large-scale marine protected areas 
            provide little to no added conservation benefits to marine 
            resources, especially for highly mobile species such as 
            tunas, billfish and sharks, as stated by highly renowned 
            fisheries scientists

FEDERAL OVERREACH, INCREASED ADMINISTRATIVE BURDEN, & POOR 
        IMPLEMENTATION RECORD

    <bullet> Without added conservation benefits, monuments are an 
            unnecessary burden on the U.S. fishing industry and seafood 
            consumers

    <bullet> Congress has not provided the USCG increased funding to 
            monitor and enforce the remote, large swaths of ocean 
            designated as monuments

    <bullet> NOAA and U.S. FWS have yet to release and finalize 
            monument management plans for Rose Atoll, Pacific Remote 
            Islands, and Marianas Trench monuments--almost 8 years 
            after establishment

NO PUBLIC PROCESS, TRANSPARENCY OR ADAPTIVE MANAGEMENT OPPORTUNITIES

    <bullet> Monuments are established under the Antiquities Act of 
            1906, with Presidential Proclamations and directives to 
            various agencies to implement regulations under their 
            respective authorities. The National Environmental 
            Protection Act and the Administrative Procedures Act are 
            not required in the designation of monuments

    <bullet> Monument regulations are rigidly implement Presidential 
            directives with little to no discretion. Some Presidents 
            have closed huge expanses of U.S. fishing grounds to 
            sustainably managed U.S. fisheries. Adaptive management is 
            impossible without additional Presidential or Congressional 
            action.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Submitted by Rep. Grijalva

    --  Administration of Coral Reef Resources in the Northwest 
            Hawaiian Islands: Memorandum Opinion for the 
            Solicitor, Department of the Interior; the General 
            Counsel, National Oceanic and Atmospheric 
            Administration; and the General Counsel, Council on 
            Environmental Quality. September 15, 2000.

Submitted by Rep. Beyer

    --  A large body of documents supporting the designation of 
            the monuments.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
